<html>
<title> - BUILDING A 21ST-CENTURY INFRASTRUCTURE FOR AMERICA: IMPROVING WATER QUALITY THROUGH INTEGRATED PLANNING</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]




 
  BUILDING A 21ST-CENTURY INFRASTRUCTURE FOR AMERICA: IMPROVING WATER 
                  QUALITY THROUGH INTEGRATED PLANNING

=======================================================================

                                (115-16)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                    WATER RESOURCES AND ENVIRONMENT

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 18, 2017

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure
             
             
             
             
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]             
             
             


         Available online at: http://www.gpo.gov/fdsys/browse/
        committee.action?chamber=house&committee=transportation
        
        
                            _________ 

                U.S. GOVERNMENT PUBLISHING OFFICE
                   
 25-483 PDF              WASHINGTON : 2018       
____________________________________________________________________
 For sale by the Superintendent of Documents, U.S. Government Publishing Office,
Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
  Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001             
        
        


             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                  BILL SHUSTER, Pennsylvania, Chairman

DON YOUNG, Alaska                    PETER A. DeFAZIO, Oregon
JOHN J. DUNCAN, Jr., Tennessee,      ELEANOR HOLMES NORTON, District of 
  Vice Chair                         Columbia
FRANK A. LoBIONDO, New Jersey        JERROLD NADLER, New York
SAM GRAVES, Missouri                 EDDIE BERNICE JOHNSON, Texas
DUNCAN HUNTER, California            ELIJAH E. CUMMINGS, Maryland
ERIC A. ``RICK'' CRAWFORD, Arkansas  RICK LARSEN, Washington
LOU BARLETTA, Pennsylvania           MICHAEL E. CAPUANO, Massachusetts
BLAKE FARENTHOLD, Texas              GRACE F. NAPOLITANO, California
BOB GIBBS, Ohio                      DANIEL LIPINSKI, Illinois
DANIEL WEBSTER, Florida              STEVE COHEN, Tennessee
JEFF DENHAM, California              ALBIO SIRES, New Jersey
THOMAS MASSIE, Kentucky              JOHN GARAMENDI, California
MARK MEADOWS, North Carolina         HENRY C. ``HANK'' JOHNSON, Jr., 
SCOTT PERRY, Pennsylvania            Georgia
RODNEY DAVIS, Illinois               ANDRE CARSON, Indiana
MARK SANFORD, South Carolina         RICHARD M. NOLAN, Minnesota
ROB WOODALL, Georgia                 DINA TITUS, Nevada
TODD ROKITA, Indiana                 SEAN PATRICK MALONEY, New York
JOHN KATKO, New York                 ELIZABETH H. ESTY, Connecticut, 
BRIAN BABIN, Texas                   Vice Ranking Member
GARRET GRAVES, Louisiana             LOIS FRANKEL, Florida
BARBARA COMSTOCK, Virginia           CHERI BUSTOS, Illinois
DAVID ROUZER, North Carolina         JARED HUFFMAN, California
MIKE BOST, Illinois                  JULIA BROWNLEY, California
RANDY K. WEBER, Sr., Texas           FREDERICA S. WILSON, Florida
DOUG LaMALFA, California             DONALD M. PAYNE, Jr., New Jersey
BRUCE WESTERMAN, Arkansas            ALAN S. LOWENTHAL, California
LLOYD SMUCKER, Pennsylvania          BRENDA L. LAWRENCE, Michigan
PAUL MITCHELL, Michigan              MARK DeSAULNIER, California
JOHN J. FASO, New York
A. DREW FERGUSON IV, Georgia
BRIAN J. MAST, Florida
JASON LEWIS, Minnesota

                                  (ii)

  


            Subcommittee on Water Resources and Environment

                   GARRET GRAVES, Louisiana, Chairman

ERIC A. ``RICK'' CRAWFORD, Arkansas  GRACE F. NAPOLITANO, California
BOB GIBBS, Ohio                      LOIS FRANKEL, Florida
DANIEL WEBSTER, Florida              FREDERICA S. WILSON, Florida
THOMAS MASSIE, Kentucky              JARED HUFFMAN, California
RODNEY DAVIS, Illinois               ALAN S. LOWENTHAL, California
MARK SANFORD, South Carolina         EDDIE BERNICE JOHNSON, Texas
ROB WOODALL, Georgia                 JOHN GARAMENDI, California
TODD ROKITA, Indiana                 DINA TITUS, Nevada
JOHN KATKO, New York                 SEAN PATRICK MALONEY, New York
BRIAN BABIN, Texas                   ELIZABETH H. ESTY, Connecticut
DAVID ROUZER, North Carolina         CHERI BUSTOS, ILLINOIS
MIKE BOST, Illinois                  JULIA BROWNLEY, California
RANDY K. WEBER, Sr., Texas           BRENDA S. LAWRENCE, Michigan
DOUG LaMALFA, California             PETER A. DeFAZIO, Oregon (Ex 
A. DREW FERGUSON IV, Georgia         Officio)
BRIAN J. MAST, Florida, Vice Chair
BILL SHUSTER, Pennsylvania (Ex 
Officio)

                                 (iii)
                                 

                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................   vii

                               WITNESSES

Hon. Pete Buttigieg, Mayor, City of South Bend, Indiana, on 
  behalf of the U.S. Conference of Mayors:

    Testimony....................................................     7
    Prepared statement...........................................    45
    Response to question for the record from Hon. Grace F. 
      Napolitano, a Representative in Congress from the State of 
      California.................................................    63
Hon. Johnny I. Dupree, Ph.D., Mayor, City of Hattiesburg, 
  Mississippi, on behalf of the National League of Cities:

    Testimony....................................................     7
    Prepared statement...........................................    65
    Response to question for the record from Hon. Grace F. 
      Napolitano, a Representative in Congress from the State of 
      California.................................................    74
Hon. Todd Portune, Commissioner, Hamilton County Board of 
  Commissioners, on behalf of the National Association of 
  Counties:

    Testimony....................................................     7
    Prepared statement...........................................    75
    Response to question for the record from Hon. Grace F. 
      Napolitano, a Representative in Congress from the State of 
      California.................................................    88
Craig Butler, Director, Ohio Environmental Protection Agency, on 
  behalf of the Environmental Council of the States:

    Testimony....................................................     7
    Prepared statement...........................................    89
    Response to question for the record from Hon. Grace F. 
      Napolitano, a Representative in Congress from the State of 
      California.................................................    97
William E. Spearman III, P.E., Principal, WE3 Consultants, LLC, 
  on behalf of the American Public Works Association:

    Testimony....................................................     7
    Prepared statement...........................................    98
    Response to question for the record from Hon. Grace F. 
      Napolitano, a Representative in Congress from the State of 
      California.................................................   103
Lawrence Levine, Senior Attorney, Natural Resources Defense 
  Council:

    Testimony....................................................     7
    Prepared statement...........................................   105
    Response to question for the record from Hon. Grace F. 
      Napolitano, a Representative in Congress from the State of 
      California.................................................   120

                       SUBMISSIONS FOR THE RECORD

Hon. Elizabeth H. Esty, a Representative in Congress from the 
  State of Connecticut, and Hon. Peter A. DeFazio, a 
  Representative in Congress from the State of Oregon, submission 
  of a chart entitled, ``National Summary of State Information, 
  Percentage of Impaired or Threatened Assessed Waters''.........     3
Hon. Garret Graves, a Representative in Congress from the State 
  of Louisiana, submission of the following:

    Written statement of the U.S. Environmental Protection Agency   123
    Written statement of the National Association of Clean Water 
      Agencies...................................................   130
Hon. Elizabeth H. Esty, a Representative in Congress from the 
  State of Connecticut, submission of the following:

    Written statement of Hon. Marcia L. Fudge, a Representative 
      in Congress from the State of Ohio.........................   138
    Written statement of American Rivers et al...................   140
    

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    




  BUILDING A 21ST-CENTURY INFRASTRUCTURE FOR AMERICA: IMPROVING WATER 
                  QUALITY THROUGH INTEGRATED PLANNING

                              ----------                              


                         THURSDAY, MAY 18, 2017

                  House of Representatives,
   Subcommittee on Water Resources and Environment,
            Committee on Transportation and Infrastructure,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:05 a.m., in 
room 2167 Rayburn House Office Building, Hon. Garret Graves 
(Chairman of the subcommittee) presiding.
    Mr. Graves of Louisiana. The subcommittee will come to 
order. Good morning, and thank you all for being here. I ask 
unanimous consent that Members not on the subcommittee be 
permitted to sit with the subcommittee today and ask questions 
at the hearing. Without objection, it is so ordered.
    I want to welcome everyone for being here today at our 
hearing ``Building a 21st-Century Infrastructure for America: 
Improving Water Quality Through Integrated Planning.'' 
Communities all across our Nation are facing increasing 
regulatory enforcement, financial pressures to address sewer 
overflows and other aging water infrastructure issues, as well 
as other burdensome regulatory challenges that have become 
priorities in recent years.
    These include more stringent and widespread regulations on 
stormwater discharges, daily loads, total maximum daily loads, 
nutrients and other pollutants, and public drinking water 
systems which could lead to many communities having to install 
and operate, at great expense, advanced treatment, removal, and 
prevention technologies.
    A large portion of these regulatory mandates are going 
unfunded by the Federal and State governments, with the result 
that many municipalities have had to make substantial increases 
in investments in wastewater and public infrastructure, to the 
point that many communities and ratepayers are now increasingly 
getting economically pressed to the limit.
    And I want to give some examples of what that looks like. 
In my home State of Louisiana, we have situations where the 
city of Baton Rouge, where I am from, we are under a consent 
decree. The city of New Orleans, under consent decree. The city 
of Shreveport, under a consent decree.
    The St. Louis region has a $4.6 billion consent decree, 
Atlanta $4.1 billion, Indianapolis $3.1 billion, South Bend 
$861 million, and that city has a population of approximately 
100,000. So you can do the math there. Lima, Ohio, a population 
of 38,000, has a consent decree costing approximately $160 
million.
    In Chicopee, Massachusetts, they had to raise rates by 134 
percent. The residents now pay more than $700 a year. Baltimore 
had to raise rates by approximately 9 percent per year for each 
of the last 8 years, with the exception of 1 year where there 
was approximately a 4-percent increase. And in Washington, DC, 
the average household, for four to six people, is charged just 
under $100 a month.
    No one is sitting here saying that we should not have 
regulations. No one is saying that we should not respect our 
environment, that we should be discharging polluted water. What 
we are saying is that the EPA in 2012 developed an integrated 
planning approach where the idea was you were going to have 
more flexibility in the way that these issues were addressed, 
more flexibility for the municipalities, for the States, and 
others, to solve these problems, and of course, do it in a 
manner that is affordable rather than continuing to impose 
unfunded mandates, continuing to see extraordinary increases on 
rates of our citizens across the country.
    And so the hearing today, we are interested in hearing from 
our witnesses and learning more about your perspective on 
integrated planning, how that is working as compared to what 
appears to be a larger focus on aggressive enforcement actions 
such as consent decrees, and getting your perspective on how 
this process can be improved to where we can do a better job 
balancing environmental success, affordability, and flexibility 
for many of our States and municipalities that are dealing with 
these challenges.
    So I am looking forward to hearing from our witnesses 
today. I am looking forward to hearing your thoughts on how we 
move forward and address some of these challenges. And with 
that, I am going to turn to Ms. Esty for opening comments.
    Ms. Esty. Thank you, Mr. Chairman, for holding this 
important hearing on improving water quality through integrated 
planning. In 1972, Congress enacted the Clean Water Act to 
protect public health, to ensure safe sources of drinking 
water, and to provide safe recreation areas for all Americans.
    Forty-five years later, water quality continues to be a 
challenge across the country and in my home State of 
Connecticut. Poor water quality does not just threaten public 
health, it jeopardizes our fisheries, limits recreational 
opportunities, and is a drag on our economy.
    Mr. Chairman, I ask unanimous consent to enter into the 
record a summary of recent Clean Water Act reports on the 
condition of the Nation's waterways that shows a downward trend 
in improving the health of streams, rivers, and lakes across 
the country.
    Mr. Graves of Louisiana. Without objection.
    Ms. Esty. Thank you.


        [The national summary of impaired or threatened assessed waters 
        follows:]

                               National Summary of State Information Percentage of Impaired or Threatened Assessed Waters
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                    Lakes,            Bays and           Coastal
                                                               Rivers and      Reservoirs, and     Estuaries (Sq.       Shorelines      Wetlands (Acres)
                                                            Streams (Miles)     Ponds (Acres)          Miles)            (Miles)
--------------------------------------------------------------------------------------------------------------------------------------------------------
2017 \1\.................................................               55.1               71.5               83.5               21.3               53.9
--------------------------------------------------------------------------------------------------------------------------------------------------------
2011 \2\.................................................                 51                 66                 61                 38                 36
--------------------------------------------------------------------------------------------------------------------------------------------------------
2009 \3\.................................................                 47                 64                 30                n/a                n/a
--------------------------------------------------------------------------------------------------------------------------------------------------------
2007 \4\.................................................                 49                 52                 44                 17                 52
--------------------------------------------------------------------------------------------------------------------------------------------------------
2002 \5\.................................................                 39                 45                 51                 14                n/a
--------------------------------------------------------------------------------------------------------------------------------------------------------
2000 \6\.................................................                 35                 45                 44                 12                n/a
--------------------------------------------------------------------------------------------------------------------------------------------------------
1996 \7\.................................................                 44                 49                 42                 21                n/a
--------------------------------------------------------------------------------------------------------------------------------------------------------
\1\ U.S. Environmental Protection Agency, National Summary of State Information (ATTAINS_Database) (May 2017).
\2\ U.S. Environmental Protection Agency, National Summary of State Information (ATTAINS_Database) (January 2011).
\3\ U.S. Environmental Protection Agency, National Water Quality Inventory, 2004 Reporting Cycle (January 2009).
\4\ U.S. Environmental Protection Agency, National Water Quality Inventory, 2002 Reporting Cycle (October 2007).
\5\ U.S. Environmental Protection Agency, National Water Quality Inventory, 2000 Report (August 2002).
\6\ U.S. Environmental Protection Agency, National Water Quality Inventory, 1998 Report to Congress (June 2000).
\7\ U.S. Environmental Protection Agency, National Water Quality Inventory, 1996 Report to Congress (April 1998).


    Ms. Esty. Improving our Nation's water quality should 
continue to be a priority for Congress, and I look forward to 
working together to help our communities make continued 
progress in restoring their local rivers, lakes, and streams 
for the protection and enjoyment of all Americans.
    But our communities cannot afford to improve the water 
quality on their own, and that is in part why EPA developed the 
integrated planning policy under the Clean Water Act, based on 
the reality that States and municipalities do not have the 
financial or, often, the technical expertise to address local 
water quality challenges.
    The integrated planning policy encourages communities to 
work directly with the Federal Government and State agencies to 
identify and fully implement the most effective and the most 
cost-effective approaches for meeting our shared objective of 
clean water that protects public health and the environment.
    Our communities need additional financial resources and 
assistance to clean up their local rivers, streams, and lakes. 
But the primary program for providing that assistance, the 
Clean Water State Revolving Fund, was last authorized in 1987, 
almost 30 years ago.
    Reauthorizing and funding the Clean Water State Revolving 
Fund is particularly important for many of our States, and I 
can speak from experience in Connecticut, where all of our 
rivers basically flow into Long Island Sound. It is absolutely 
essential, and I know when I served on the local town council 
and was tasked to the Water Pollution Control Authority, 
basically every municipality in Connecticut relies on the State 
Revolving Fund to fund what typically for a community of 
30,000, like mine of Cheshire, was $6 million just to deal with 
the phosphorus issue.
    So we know that that is often not reasonable for 
communities to deal with on their own, and yet the health of 
Long Island Sound is an American issue. It touches the entire 
country and involves economically important fisheries and other 
recreational activities. So that just underscores how important 
these initiatives are.
    And I am looking forward to hearing today, with your 
expertise and your advice to us, to make sure we have the 
support to reauthorize and fully fund the Clean Water State 
Revolving Fund to allow you at the local and at the State level 
to make these important investments.
    And I know, having been in the State legislature and having 
been in local office and worked on these exact issues, and 
having worked for NRDC [Natural Resources Defense Council] on 
water issues back in law school, that these are ongoing 
challenges. We want the most effective use of tax dollars. We 
all want that.
    But the response should not be, let's just let the water 
quality go. As we saw in Flint, Michigan, that is a danger. 
That is a danger, and we should not be subjecting our 
constituents or anyone in America to those risks.
    So again, this is an important discussion we are having 
here today, and we are very much looking forward to your 
perspective on how this integrated planning process fits into 
that broader initiative of doing it smarter, doing it better, 
and stretching those taxpayer dollars to achieve the goals.
    I think we need to keep hard adherence to the goals of 
clean, safe, and affordable drinking water for communities and 
waste systems that work, and then have the political will to 
fund them at appropriate levels to help communities across the 
country preserve these national treasures.
    And a final anecdote: My husband grew up right next to 
Waterbury, Connecticut. When he was a kid, he knew what color 
Keds they were making in Waterbury in Sperry by the color that 
the river was flowing. And he could smell it when he was 
playing baseball.
    The Waterbury Water Treatment Plant Initiative, which has 
been done through the clean water fund, is now restoring that 
entire river system to the cleanest level it has been since the 
early 1800s. It is possible to reclaim these rivers and have 
the fly fishing I now have in my district precisely because 
these funds have been so important.
    So again, I welcome you all to joining us here today on 
National Infrastructure Week, and look forward to your 
testimony. Thank you very much.
    Mr. Graves of Louisiana. Thank you, Ms. Esty.
    And now I am going to turn to the ranking member of the 
full committee, Mr. DeFazio.
    Mr. DeFazio. Thank you, Mr. Chairman. Thanks for this 
important hearing. We do not want overly prescriptive and 
burdensome regulations. We do want to give flexibility to 
communities, and we hope to hear about what a number of 
communities have done or what problems they have had with a 
results-oriented approach that is not following a Federal 
prescription. That is critical.
    But the Federal Government is not being a good partner. We 
are not putting our money where our regulations or mouth is. 
Now, you can go one of two ways. You can say, well, let's just 
waive the regulations. Let's go back to the good old days when 
the Cuyahoga River caught fire and the Willamette River in 
Oregon was essentially an open sewer.
    I do not believe the American people support that. The 
American people want clean rivers and streams and the 
recreational aspects of that. They want drinking water that is 
safe, and we can do that. It would be pathetic for the 
Government of the United States of America to say, ``We cannot 
afford clean water. We are going to emulate China where the 
water is just filthy and undrinkable.''
    So today I am introducing, with Ranking Member Napolitano, 
who because of a personal issue is not here, and Representative 
Duncan, we are introducing a bill to reauthorize the Clean 
Water SRF program. The Federal Government needs to be a good 
partner. Statistics, and I will put this little chart in the 
record, are alarming.
    The deterioration is accelerating; just 20 years ago, 44 
percent of rivers and streams, in terms of mileage measured, 
were impaired, and today, it is 55.1. Lakes, reservoirs, and 
ponds have gone from 49 to 71.5 percent. Bays and estuaries 
particularly alarming since that is basically the breadbasket 
of the oceans--the estuaries have gone from 42 percent impaired 
to 83.5 percent impaired. Coastal shoreline miles, we are doing 
a little better there; it is only up slightly. And then 
wetlands, we are talking about 54 percent.
    So hopefully we will hear from the witnesses today perhaps 
Congress needs to move the EPA toward a more results-oriented 
approach with more flexibility. I had a city in my district 
that developed a very, very innovative way to deal with 
wastewater, and I am sure others around the country have done 
that.
    So I am looking forward to the testimony, and hopefully we 
will take action and reauthorize the Clean Water SRF program. 
Thank you, Mr. Chairman.
    Mr. Graves of Louisiana. Thank you, Mr. DeFazio.
    Before I begin introducing our witnesses this morning, I 
need to dispense with some unanimous consent requests.
    I ask unanimous consent that written testimony submitted on 
behalf of the following be included in the hearing record: from 
the Environmental Protection Agency, from the National 
Association of Clean Water Agencies.
    Is there any objection?
    [No response.]
    Mr. Graves of Louisiana. Without objection, so ordered.

    [The written testimonies from the Environmental Protection Agency 
and the National Association of Clean Water Agencies are on pp. 123-
137.]

    Mr. Graves of Louisiana. I ask unanimous consent that the 
record remain open for 30 days after the hearing in order to 
accept written testimony for the hearing record. Without 
objection, it is so ordered.
    I ask unanimous consent that the record of today's hearing 
remain open until such time as our witnesses provide answers to 
any questions that may be submitted to them in writing. Without 
objection.
    Ms. Esty. I ask unanimous consent that the following 
statements and letters be made part of the hearing record for 
today: first, a statement from Representative Marcia L. Fudge 
of Ohio; the second letter is from several conservation 
organizations, including American Rivers, the American 
Sustainable Business Council, Earthjustice, the League of 
Conservation Voters, NRDC, and the Southern Environmental Law 
Center.
    Mr. Graves of Louisiana. Without objection, so ordered.

    [The statements of Hon. Marcia L. Fudge and American Rivers et al. 
are on pp. 138-143.]

    Mr. Graves of Louisiana. Thank you. At this time I will 
recognize Mr. Rokita to introduce the Honorable Pete Buttigieg.
    Mr. Rokita. Thank you.
    Mr. Graves of Louisiana. Is that all right? All right. 
Thank you.
    Mr. Rokita. We will get to that, Chairman.
    [Laughter.]
    Mr. Graves of Louisiana. Pete.
    Mr. Rokita. Thank you, Chairman, and thank you for your 
leadership in organizing us here this morning. I am happy to 
take this opportunity to welcome before our subcommittee a 
fellow Hoosier, our executive brand leader in South Bend, 
Indiana, Mayor Pete Buttigieg, just like it is spelled.
    [Laughter.]
    Mr. Rokita. Mayor Buttigieg was first elected mayor in 2011 
as a young man and is currently serving in his second term. 
Mayor Buttigieg is testifying before the committee, Chairman, 
representing the Conference of Mayors.
    South Bend is the fourth largest city in Indiana, with a 
population of just over 100,000 people. It is also home, of 
course, to one of the most prestigious universities in the 
world, the University of Notre Dame. But perhaps more 
importantly, it comes also very close to rivaling Whiting, 
Indiana as the best place in the Midwest to get a good pierogi.
    As the mayor will explain, South Bend also has a unique 
history, perhaps unfortunately, with Clean Water Act. South 
Bend is currently under a consent decree, which is in essence a 
mandate placed upon them by the Federal Government but without 
any funding from the Federal Government. These burdens placed 
on our local governments need to stop, and I look forward to 
hearing from Mayor Buttigieg and all our witnesses on this 
matter. I yield back.
    Mr. Graves of Louisiana. Reserving the right to object to 
the description of Notre Dame, I recognize Mayor Pete for 5 
minutes.

 TESTIMONY OF HON. PETE BUTTIGIEG, MAYOR, CITY OF SOUTH BEND, 
   INDIANA, ON BEHALF OF THE U.S. CONFERENCE OF MAYORS; HON. 
     JOHNNY I. DUPREE, PH.D., MAYOR, CITY OF HATTIESBURG, 
 MISSISSIPPI, ON BEHALF OF THE NATIONAL LEAGUE OF CITIES; HON. 
     TODD PORTUNE, COMMISSIONER, HAMILTON COUNTY BOARD OF 
    COMMISSIONERS, ON BEHALF OF THE NATIONAL ASSOCIATION OF 
COUNTIES; CRAIG BUTLER, DIRECTOR, OHIO ENVIRONMENTAL PROTECTION 
 AGENCY, ON BEHALF OF THE ENVIRONMENTAL COUNCIL OF THE STATES; 
WILLIAM E. SPEARMAN III, P.E., PRINCIPAL, WE3 CONSULTANTS, LLC, 
    ON BEHALF OF THE AMERICAN PUBLIC WORKS ASSOCIATION; AND 
  LAWRENCE LEVINE, SENIOR ATTORNEY, NATURAL RESOURCES DEFENSE 
                            COUNCIL

    Mr. Buttigieg. Thank you, Chairman, and thank you, 
Congressman Rokita, for the gracious introduction. I would 
welcome you for a comparative pierogi tasting and we can settle 
that question about Whiting. And I want to thank everyone here 
for paying attention to an unglamorous but extraordinarily 
important issue for us.
    As was said, South Bend is a medium-sized city. We've got 
about 100,000 people, and as a mayor, I am proud to report we 
are seeing our fastest population and economic growth in a 
generation. But we are still struggling economically in many 
ways. Over one-quarter of our population lives below the 
Federal poverty line.
    And, like many midwestern communities, we have a legacy 
combined sewer system. So since late 2011, we have been working 
to comply with the Federal consent decree that tells us how we 
are supposed to modify our sewer system to reduce overflows.
    We love our river and we enthusiastically support the goal 
of reducing overflows. But the current plan is enormously 
expensive, $861 million, as the chairman mentioned. When you 
add in financing costs, that is over $1 billion. So in a city 
of 100,000, that is $10,000 for every man, woman, and child, in 
a city where the per capita personal income is $19,818. It is 
simply not affordable.
    One out of every ten households in our city would spend 14 
percent of their income as a household on the wastewater 
portion of their bill. Low-income families cannot afford it, 
and we also cannot afford to have our economic competitiveness 
diminished by wastewater rates that make us uncompetitive. And 
I cannot believe that this set of harms was ever intended in 
the Clean Water Act.
    I do want to tell you about the progress that we have 
already made. This is a two-phase plan. We have already 
executed phase 1. We invested $150 million to do that. I am 
also sometimes heard boasting that South Bend has the smartest 
sewers in the world. Beginning at the initiative of my 
predecessor, our city established a network of WiFi-enabled 
small sensors deployed throughout the system that allows us to 
optimize the flow.
    Because of those two things, we have already reduced our 
overflows by 75 percent. We have gone from over 2 billion 
gallons annually to less than 500 million. But getting that 
last 25 percent, that part has a price tag of over $700 
million. It is all ``gray'' infrastructure, tanks and tunnels. 
So it is not what you would call an integrated plan, and it 
does not contemplate green infrastructure.
    Now, thanks to that smart sewer data that I just mentioned, 
we have been able to model with much greater accuracy the plan 
that we agreed to. And what we have learned is that it is not 
only more expensive but actually less effective than originally 
envisioned. And yet as of now, we are required to go forward 
with it.
    We have figured out a way to meet the objectives for 
dramatically less, from $713 million to about $200 million, 
through a smarter, greener plan, but only if we are allowed to 
implement it. So what communities like South Bend need most of 
all is flexibility. Rigid long-term control plans that do not 
evolve with technology and do not use an integrated approach 
are not meeting the goal of protecting our national waters 
efficiently and affordably.
    Now, a lot of cities share South Bend's story, and that is 
why the U.S. Conference of Mayors is calling for solutions in a 
number of areas:
    First, it is time to codify the EPA's integrated planning 
and permitting policy. Integrated planning is designed to allow 
cities to develop comprehensive plans for our water, sewer, and 
stormwater needs, and invest over time according to our 
priorities.
    Second, we believe we can achieve long-term control through 
permits, allowing for more flexibility and realistic timelines 
rather than committing to highly prescriptive plans that only 
allow gray infrastructure and do not keep up with the times.
    Third, we are urging congressional support for exercising 
flexibility in the existing law. The Clean Water Act allows EPA 
to use flexibility in what are called use attainment 
designations, allowing for commonsense variances. But that 
flexibility is applied very unevenly across the system and 
across the country.
    And fourth, the conference urges eliminating civil 
penalties for local governments working in good faith. We 
believe the civil penalties should be reserved only for those 
units that refuse to achieve progress, not for those doing our 
best to serve citizens affordably. Now, the conference favors 
bill 465, but all of the bills that are being discussed 
recently are positive steps forward, and we thank Members for 
paying attention to this. We think that the financial impact 
threshold triggering a discussion--not a rollback, but a 
discussion of flexibility--is urgently needed in cities like 
ours. And we believe overall we need to rethink how to clean up 
our lakes and rivers as effectively and cost-efficiently as 
possible.
    Again, I thank the committee for your attention to this 
matter. I would refer you to our written testimony for more 
detail. And I look forward to this morning's discussion.
    Mr. Graves of Louisiana. Thank you, Mr. Mayor. Thank you.
    Our next witness is the Honorable Johnny DuPree, the mayor 
of Hattiesburg, Mississippi. And with a name like DuPree, I 
assume you were kicked out of Louisiana at some point. But I 
welcome you being next door and recognize for 5 minutes.
    Mr. DuPree. Good morning, Mr. Chairman, Chairman Graves, 
and to Congresswoman Esty and members of the subcommittee. I am 
Johnny DuPree. I am mayor of the city of Hattiesburg, 
Mississippi, some say the home of Brett Favre because he is 
still there. We are the fourth largest city in the State. We 
have, per capita, more doctors in Hattiesburg than any other 
city in the State.
    But I want to thank you for this opportunity to highlight 
the importance of investing in our Nation's water 
infrastructure. I would also like to discuss some opportunities 
of local government flexibility in dealing with the kinds of 
water challenges like we are facing in Hattiesburg.
    First, on behalf of the National League of Cities, I would 
like to express our support for two much-needed policy 
frameworks adopted by EPA, the integrated municipal stormwater 
and wastewater planning approach and the Financial Capability 
Assessment Framework for municipal Clean Water Act 
requirements. They have been important tools for us for local 
government dealing with stormwater and wastewater 
infrastructure issues.
    But while those tools have been a great help to our cities, 
there is still a lot more that we could do. We have to ensure 
that these frameworks can work not only for the largest cities 
and the smallest cities but for all cities, all communities, to 
help balance the environmental protection with economic 
feasibility.
    In working to serve our constituents, my other fellow city 
leaders and I are faced with regulatory burdens and unfunded 
mandates. We have had to make tough choices sometimes about 
service or maintenance. We have seen proposed budget cuts that 
would undermine our most important programs.
    In Hattiesburg, we are facing challenges addressing 
sanitary sewer overflows, just like other cities, upgrading our 
wastewater treatment facility to the tune of maybe $150 
million, and modernizing our drinking and water system. Like in 
many cities, many of our pipes and mains are well past their 
expected life design. Our city is 133 years old.
    Our city has invested over $40 million in bond funds over 
the last 5 years to meet the requirements of the Clean Water 
Act and the Safe Drinking Water Act. We are projecting to spend 
another $30 million in bonds over the next 5 years. And on top 
of that, we have hiked our rates over and over and over again, 
just this last year by 20 percent.
    But all of that spending still will not be enough to meet 
our needs and to meet the requirements. It is still not enough 
to satisfy these unfunded Federal mandates. So let me be clear. 
We are committed to making the smartest, most sustainable 
investments for our community. And we care about building 
infrastructure, infrastructure that will not only take us 
further but also take our children and their children further.
    But with limited financial capacity, both from our city and 
from our citizens, those who are least able to afford it, being 
able to prioritize and sequence projects would go a long way 
towards making a long-term plan for integrated stormwater and 
wastewater projects more feasible.
    The first thing we need in our cities is flexibility, 
flexibility through partnerships. Last October, Hattiesburg won 
a technical assistance grant from EPA to develop green 
infrastructure along the Little Gordon's Creek, which is an 
impaired tributary of the Leaf River. That plan would help us 
extend the life of our infrastructure and help us save money.
    Mr. Chairman, this is exactly what cities and towns need, 
the ability to work with our State and our EPA to prioritize 
our investments and embrace innovative solutions to integrated 
planning.
    The second thing we need is flexibility to permit. If you 
give city leaders the chance to be realistic with time and 
prioritize, accordingly you get a better solution and 
oftentimes a lower rate. What cities and towns need most is 
affordable, flexible Federal programs that work in every 
community, large and small, urban or rural; that will be 
consistent in guidance, and assistance across the EPA regions. 
When we can count on that Federal support, we can start fixing 
the program.
    Luckily, many of you and your fellow legislators are 
working proactively to support integrated planning on the local 
level, and I see committee sponsors of both the Water Quality 
Improvement Act and the Water Infrastructure Flexibility Act. 
And we urge Congress to pass them both.
    As you consider these bills, there are a number of 
provisions that could make the processes clearer, more 
efficient, and even more affordable. I encourage you to 
consider both technical feasibility and economic affordability 
within integrated permits, as well as reassessing the threshold 
at which financial impacts on ratepayers become too burdensome.
    I also want to thank Ranking Member DeFazio in his absence 
and also Congresswoman Esty and all the other Members for 
introducing the Water Quality Protection and Job Creation Act, 
which would go a long way towards addressing our aging 
infrastructure problems.
    In closing, the Federal Government's water regulations 
cannot come as mandates. We need more direct funding for our 
cities and we need the ability to address our wastewater and 
stormwater requirements in a holistic, flexible, and affordable 
manner through integrated planning.
    I want to thank you all again for allowing me to come, and 
I look forward to your questions.
    Mr. Graves of Louisiana. Thank you, Mr. Mayor. Appreciate 
your testimony.
    Our next witness is the Honorable Todd Portune, who is a 
commissioner for Hamilton County, Ohio.
    Mr. Portune. Good morning, Chairman Graves, Representative 
Esty, and members of the subcommittee. It is an honor to be 
here today to testify before this subcommittee. My name is Todd 
Portune, and I serve as president of the Hamilton County Board 
of County Commissioners in Ohio. Today I am representing the 
National Association of Counties.
    Hamilton County, Ohio, is considered primarily urban, with 
a population of almost 808,000 residents located in southwest 
Ohio. The county seat is in Cincinnati, which is the third 
largest city in Ohio.
    The topic of this hearing is of great importance to 
counties across the United States that are dealing with 
increased responsibilities and unfunded mandates under the 
Clean Water Act as co-regulators and as regulated entities. 
This includes the rising expenses associated with Clean Water 
Act wastewater-related wet weather consent decrees, with 
tighter stormwater requirements, and the limited capabilities 
of our counties and residents to absorb the cost of these 
additional outlays.
    Today, as you continue to assess how integrated planning 
can be used to achieve Federal water quality goals, I would 
like to share with the committee three key points for 
consideration.
    First, integrated planning can help counties address the 
growing list of Clean Water Act needs. Over the years, the 
number of Federal regulations and requirements facing counties 
have increased dramatically.
    This growing number of regulations comes at a time when 
counties, regardless of their size, are experiencing 
significant fiscal constraints, and our capacity to fund 
compliance activities is often limited. In fact, over 40 States 
put significant restrictions on counties' ability to generate 
revenue or collect taxes.
    Additionally, the Federal Government has increasingly been 
using litigation-driven consent decrees to drive tighter 
requirements for combined sewer overflows and sanitary sewer 
overflows, including those at wastewater treatment plants. In 
some cases, the cost of these consent decrees has ranged from 
hundreds of millions to billions of dollars per county.
    In my county, we oversee the Metropolitan Sewer District of 
Greater Cincinnati. It serves almost 300,000 households. But 
since 2004, Hamilton County and the sewer district has been 
required to comply with a consent decree for a Federal water 
quality noncompliance issue on our wastewater sewage system.
    As a result, the county and our taxpayers are required to 
invest over $3 billion at 2006 rates in additional projects and 
infrastructure upgrades. In the past 10 years alone, Hamilton 
County has spent over $1 billion, with over $2 billion still to 
go under our decree.
    Close to one-third of Hamilton County lives below the 
Federal poverty level. They are the ones most hard-hit by these 
new requirements and under the consent decree and other 
associated costs.
    Since we began, our sewer rates have increased 
approximately 350 percent, and over the next 20 years annual 
sewer rates will rise from $844 a year to $2,748 a year when we 
finally meet the terms of the consent decree, if the remainder 
of the duties must be met during that time period. 
Unfortunately, my county is not an isolated case, and stories 
like this are being retold across the United States.
    Second, integrated planning offers a path for counties to 
meet the growing universe of Clean Water Act regulations in an 
environmentally sensitive, streamlined, and cost-effective 
manner. That is why EPA's integrated planning framework is so 
attractive to counties.
    Recognizing that water affordability is a huge problem, EPA 
set in place a framework to allow EPA regions to work 
collaboratively with States and impacted local governments 
across the universe of water mandates.
    Under the plan, counties can prioritize their local water 
quality and infrastructure goals across all Clean Water Act 
programs based on the most pressing issues within their 
community. Had this been available to us at the very beginning 
in lieu of a consent decree, Hamilton County could have saved 
county residents a lot of money.
    Unfortunately, to date the EPA regional offices have not 
used integrated planning to the extent that they could, which 
brings me to the final point: Congress and the administration 
have a perfect opportunity today to protect water quality in 
ways that are affordable to counties and their residents.
    This opportunity has been created by a number of bills that 
have already been introduced, including those that have moved 
through committee in the Senate. We thank the sponsors of those 
bills for their work toward passing legislation to codify EPA's 
integrated planning framework.
    In conclusion and on behalf of America's 3,069 counties, we 
thank you, the subcommittee, for the opportunity to testify 
today about providing us, America's counties, with the 
flexibility to work with the EPA as a true partner, saving 
county ratepayers nationally close to hundreds of billions of 
dollars in the process, while meeting Clean Water Act 
requirements.
    I will be happy to answer any questions that the 
subcommittee may have, and I refer to the written testimony as 
well that we have submitted on behalf of NACo [National 
Association of Counties]. Thank you very much.
    Mr. Graves of Louisiana. Thank you, Commissioner Portune. 
Appreciate you being here. At this time I recognize Mr. Gibbs 
to introduce Mr. Craig Butler.
    Mr. Gibbs. Thank you. Thank you, Chairman. It is my 
pleasure today to introduce Craig Butler, who was appointed by 
Governor Kasich in February of 2014 as the director of the Ohio 
Environmental Protection Agency. Previously he was the 
assistant policy director for energy, agriculture, and the 
environment in Governor Kasich's administration.
    He also served as the chief of Ohio EPA's Central and 
Southeast District offices after graduating with honors from 
Mansfield University in Pennsylvania with a B.A. in geography 
and environmental science, and also a master's degree in 
environmental science from Ohio University.
    He has been a public servant for more than 24 years and he 
is a pragmatic regulator and proponent of finding innovative 
ways of solving water quality issues. And it is refreshing to 
have a director in Ohio that understands the relationship 
between business, economic growth, and how that can enhance and 
improve and protect an environment.
    And so it is my pleasure today to welcome my good friend, 
Director Butler, as he is here representing the Environmental 
Council of the States. I yield back.
    Mr. Butler. Thank you, Chairman Graves, Representative 
Esty. Representative Gibbs, thank you for the introduction. 
Members of the subcommittee, good morning. I am Craig Butler. I 
am director of the Ohio Environmental Protection Agency, 
testifying today as the Water Committee chair and Executive 
Committee member of the Environmental Council of the States--
ECOS--a national nonpartisan organization whose members are the 
leaders of State and territorial environmental protection 
agencies across the country. ECOS members include leaders of 
your States' environmental agencies, including the Louisiana 
Department of Environmental Quality and the California 
Environmental Protection Agency.
    Communities large and small across the country are working 
hard to provide a wide array of municipal services, including 
delivering clean water, safe drinking water, and managing 
cleaning municipal wastewater and stormwater as required by 
Federal, State, and local law and regulation. State regulatory 
agencies like mine are working with them to deliver the clean 
and healthy environment we all deserve and want every day.
    As you know, wastewater management requirements under the 
Federal Clean Water Act traditionally are approached in silos, 
with communities directed or required to plan and expend 
resources on wastewater and stormwater obligations 
independently.
    This segmented approach fails to allow communities to 
consider how to strategically assess and pace total compliance 
investment in making wastewater and stormwater investments, 
sometimes resulting in unrealistic commitments and compromising 
other community health and environmental investment needs.
    Looking at the cost cumulatively allows communities to 
determine their best collective path forward, with integrated 
considerations of household economic health, community 
borrowing potential, and public health and environmental 
protection goals, especially as ordinary citizens today pay for 
95 percent of water and sewer infrastructure development 
rehabilitation and operating cost.
    In Ohio we have documented clean water needs that exceed 
$14.5 billion over the next 20 years, including some 
communities that have multibillion-dollar consent orders to 
correct combined sewer overflows. This is not only a big city 
problem, however.
    We have communities ranging from medium to very small, and 
from urban to rural, that have financial obligations to fix 
staggering problems with failing wastewater infrastructure. And 
at the same time, these obligations are increasing. The portion 
of household income dedicated to water and sewer bills is 
outpacing inflation. These communities need the ability to 
prioritize and then address problems with flexibility. This 
also does not include drinking water infrastructure needs in 
Ohio that are exceeding $12 billion over that same time period.
    Integrated planning is one such strategy. Integrated 
planning can lead to more sustainable and comprehensive 
solutions, such as green infrastructure, that improve water 
quality to provide benefits and enhance community vitality. It 
is really important to note that integrated planning is not 
about changing existing regulatory or permitting standards or 
avoiding necessary improvement. Rather, it is an option to help 
municipalities meet their clean water obligations while 
optimizing their infrastructure investments through sequencing 
of their work.
    Embarking on an integrated planning process requires 
meaningful investment and time. Nothing can be more 
discouraging than uncertainty over whether a plan will be 
accepted by a regulator when it is appropriated for dialogue. 
Clarity in the Clean Water Act and certainty of support of the 
U.S. EPA would lessen this risk, and communities would want to 
invest time and resources in the process.
    Integrated planning is supported by the 2012 EPA policy, it 
has supported the integrated planning pilot projects. Limiting 
uncertainty through legislation would give communities more 
needed support to explore these tools for smart investment.
    In Ohio we use these tools in the Clean Water Act to 
minimize uncertainty to communities when we want to pursue 
integrated planning. We use a phased Clean Water Act permitting 
approach, which phases requirements on a typical 5-year renewal 
schedule for their NPDES [National Pollutant Discharge 
Elimination System] or discharge permits where permits can be 
modified at mid-cycle to respond to economic change and 
challenge. It also allows project priorities and the permitting 
process to encourage collaboration rather than conflict and 
enforcement.
    Ohio has the lead on 72 of 89 combined sewer overflow 
communities; 95 percent of these have long control plans that 
use integrated planning. The other 17 communities have 
negotiated Federal consent orders.
    To give you one example, the city of Springfield in Ohio 
has used a phased approach to plan and implement critical 
wastewater upgrades to a permit. It has avoided enforcement and 
litigation and compliance schedules were incorporated into the 
permit, where we jointly prioritized projects to achieve large 
amounts of CSO [combined sewer overflow] reductions in a very 
short period of time.
    In essence, we believe State and Federal regulators should 
work together to create opportunities for communities to plan 
collaboratively. Communities are often best-suited to assess 
their needs and shape their own priorities, and integrated 
planning helps them do this. The integrated planning process 
promotes conversation with EPA and State regulators, and those 
early conversations can prevent litigation cost as a result.
    ECOS appreciates Members of the House and Senate bringing 
the issue forward. We appreciate the work of fellow Ohioans on 
the issue. Senator Portman is a cosponsor on Senator Fischer's 
Senate 692, the Water Infrastructure Flexibility Act; and Ohio 
Representative Latta is cosponsoring the House version, H.R. 
1971, introduced by Representative Smucker; and the third bill, 
H.R. 465, Water Quality Improvement Act of 2017, was introduced 
by Representative Gibbs.
    In closing, I will say it is encouraging to see several 
Members of Congress looking at ways to use integrated planning 
to be more accessible. A specific and focused amendment to the 
Clean Water Act could add much-needed clarity to benefit 
communities.
    Mr. Chairman, Ranking Member, and members of the committee, 
I thank you for the opportunity on behalf of ECOS today. I will 
be happy to answer any questions.
    Mr. Graves of Louisiana. Thank you.
    Our next witness is William Spearman III from WE3 
Consultants. Mr. Spearman.
    Mr. Spearman. Good morning and thank you, Chairman Graves 
and Representative Esty, for holding this important hearing and 
for inviting me to participate. My name is Bill Spearman and I 
am a water resources engineer from Saluda, South Carolina, 
which just happens to be located in Congressman Jeff Duncan's 
district.
    I have over 40 years of experience in stormwater management 
and watershed management at the Federal, State, and local 
levels. I also currently serve as the director at large for 
environmental management for the American Public Works 
Association that I am representing today.
    APWA is an organization of nearly 30,000 members that 
provide the public works infrastructure and services which are 
essential to our Nation's economy and the quality of life we 
all enjoy. APWA members in the local communities and utilities 
they serve understand that clean water is important for the 
economic, social, and environmental health of their 
communities.
    However, these local communities also recognize that 
protecting water quality is only one of the issues competing 
for their limited resources. These other issues include: police 
and fire protection, streets and roads, parks and open spaces, 
and many other local concerns and needs.
    APWA and its members recognize the need for flexibility in 
the planning and permitting process to address the differences 
in communities' water quality problems, goals, and financial 
capabilities. Integrated planning and permitting should provide 
this flexibility.
    Until now, the use of integrated planning and permitting 
has predominately been driven by administrative orders or 
consent decrees. Permits, though, allow for flexibility, which 
may address the needs of individual communities as opposed to 
consent decrees, which may result in penalties and fines if a 
community is unable to meet the requirements in the consent 
decree in the specified time periods.
    There are also substantial differences in NPDES permit 
requirements for wastewater treatment systems and municipal 
separate storm sewer systems. Most wastewater system permits 
are based on water quality-based effluent limits, whereas 
municipal separate storm sewer permits are based on the maximum 
extent practicable. Potential options could be the use of other 
processes currently in EPA guidance, such as the category 5R 
option.
    The Financial Capability Assessment Framework issued by EPA 
in November 2014 recognizes the increasing financial burden on 
regulated communities for clean water activities. While 
previous financial capability assessments focus on combined 
sewer systems, the new guidance recognizes the cost of other 
programs, such as: sanitary sewer overflows, asset management 
or system rehabilitation programs, separate stormwater 
collection systems, and other Clean Water Act obligations that 
may be imposed by State or other regulators.
    APWA supports the consideration of cost for all Clean Water 
Act obligations during the permitting and enforcement process, 
including the development of a definitive affordability model 
and even regional affordability indexes.
    I would like to close my testimony today by sharing a 
current case study of an example of a successful integrated 
planning process for the Reedy River in Greenville County, 
South Carolina. Boyd Mill Pond, located on the Reedy River, was 
designated as impaired based on South Carolina's numeric 
nutrient criteria for Piedmont lakes.
    With very limited data, the South Carolina Department of 
Health and Environmental Control released a proposed TMDL 
[total maximum daily load] for phosphorus for review by the 
three entities that were affected by the permit. These would be 
Greenville County, the city of Greenville, and ReWa, the local 
and regional water/sewer provider.
    These three groups immediately challenged the waste load 
allocations in that TMDL. However, the three permittees 
recognized the importance of water quality to their citizens as 
well as the fact that these same citizens were going to bear 
the cost no matter which alternative was accepted.
    The three permittees decided to pursue the category 5R 
option in lien of a TMDL and invest the money that they would 
have spent challenging the TMDL in developing an integrated 
planning process to achieve the desired water quality goals. 
Currently, several committees and outreach goals are working 
through the Reedy River water quality group. And I have 
included the website in my testimony, so I would encourage you 
and staff to look at that.
    In closing, local governments and utilities need 
flexibility in meeting their water quality issues in a 
reasonable and financially prudent manner that recognizes that 
water quality issues are not the only issues that are competing 
for limited resources in our communities.
    We encourage the committee to continue working on the 
integrated planning and permitting effort to ensure that scarce 
taxpayer funds are well-spent and our communities' water 
resources are protected. APWA and its members stand ready to be 
a resource to you and to assist you with this process. Thank 
you very much.
    Mr. Graves of Louisiana. Thank you, Mr. Spearman.
    Our last witness is Lawrence Levine from the Natural 
Resources Defense Council. Mr. Levine.
    Mr. Levine. Thank you. Good morning, Chairman Graves, Ms. 
Esty, and members of the subcommittee. I appreciate the 
opportunity to testify today.
    First-class infrastructure to protect clean water and 
public health is among our most important and most basic needs 
as a Nation. America's municipal wastewater and stormwater 
infrastructure is outdated and failing due to decades of 
deferred maintenance and a failure to update pollution control 
technologies.
    Far too often, untreated or insufficiently treated sewage 
and polluted runoff from cities and suburbs makes our rivers, 
bays, beaches, and other waters both unsafe for human use and 
too degraded to support the fisheries and natural habitat on 
which we all depend for sustenance, recreation, and natural 
flood mitigation. Likewise, our failure to invest adequately in 
drinking water infrastructure means that in too many cases, the 
public is still drinking water containing contaminants that 
pose serious health risks.
    We have heard a lot this morning about the costs of Clean 
Water Act compliance. We cannot have a two-tiered system where 
the wealthy get water that is clean and safe for their families 
and the less well-to-do get second-class water, wastewater, and 
stormwater systems that pose risks to their health and 
environment. Rather, we need to create a system where all 
communities can afford to upgrade their water infrastructure 
and ensure compliance with legal protections that make certain 
that they do.
    In regard to integrated planning, there are two key points 
I would like to emphasize. First, integrated planning is a 
valuable tool for complying with Clean Water Act requirements. 
But it must not be used to water down those requirements.
    When done properly, integrated planning encourages 
communities to look at all of the Clean Water Act requirements 
holistically and identify ways to sequence investments to 
attain the greatest health and environmental benefits in the 
least amount of time. This encourages the use of solutions like 
green infrastructure, which save both money and time by 
addressing more than one community need simultaneously.
    Integrated planning must not be confused with approaches 
such as H.R. 465, the Water Quality Improvement Act, that would 
roll back Clean Water Act standards that protect public health 
and the environment.
    Second, discussions of integrated planning must occur in 
the broader context of the need for increased water 
infrastructure investment at all levels of Government and the 
need to fund that investment in ways that assure affordable 
access for all to safe and sufficient water, wastewater, and 
stormwater services. Without addressing these two needs, 
integrated planning alone will not solve our water 
infrastructure crisis.
    NRDC offers the following specific recommendations:
    Integrated planning under EPA's 2012 framework should be 
used appropriately as an important tool for cost-effective and 
expeditious compliance with the Clean Water Act. Congress 
should not pass any legislation that uses integrated planning 
to roll back Clean Water Act protections.
    Likewise, the concept of a community's financial capability 
must not be distorted to undermine public health and 
environmental protection. Permittees must take advantage of 
opportunities to improve affordability for ratepayers, and 
especially for low-income households, before cost concerns are 
considered as grounds for extending compliance schedules. Any 
consideration of cost must also consider the benefits of clean 
water and green infrastructure.
    Congress should establish a low-income water and sewer 
assistance program and support the creation and expansion of 
complementary programs at the State and local levels.
    NRDC supports H.R. 2328, which would create a pilot 
program. We further recommend that Congress create such a 
program nationwide.
    Federal policy should promote local water, sewer, and 
stormwater rate structures that are fair and equitable to low-
income households, as well as best practices that reduce costs 
for all customers such as asset management, green 
infrastructure, and water efficiency.
    Congress should increase the cap on the amount of State 
Revolving Fund assistance that States can distribute as grants. 
A revised cap should provide incentives to States to invest 
more in water infrastructure and to direct more financial 
support to low-income communities' water infrastructure needs, 
to environmentally innovative projects, and to projects that 
prepare our water systems for the impacts of climate change.
    Finally, Congress should triple the current annual 
appropriations to the SRFs and direct the additional funds to 
priorities that are currently underfunded such as lead service 
line replacement, green infrastructure, water efficiency, and 
climate resilience.
    Thank you for the opportunity to testify today. NRDC looks 
forward to working with the subcommittee on bold and effective 
solutions to our Nation's water infrastructure challenges.
    Mr. Graves of Louisiana. Thank you very much. I appreciate 
all of your testimony. I am going to first defer to the 
gentleman from Ohio, Mr. Gibbs, for the first round of 
questions.
    Mr. Gibbs. Thank you, Mr. Chairman, and thank you for 
holding this hearing today.
    I want to just go back for a minute. When the Clean Water 
Act was passed, I believe it was set up to be a partnership 
between the Federal Government and the States, where the States 
would implement and enforce the Clean Water Act under the 
guidance of the Federal Government.
    And I want to get this out because I do not think the 
public understands maybe what is happening with these consent 
decrees. I read in your testimony and I am going to ask the 
question, but we have these consent decrees, and I think they 
are counterproductive because that money goes back and it 
penalizes the municipalities, or villages or whoever, that are 
trying to do the right thing, and they work many years and go 
through litigation and get these consent decrees set up and 
then they are tied into them.
    And so when new technologies come about, they cannot 
address it without going back and revisiting the consent 
decree. There is a hesitancy to do that. And so I know the 
mayor from South Bend, Mr.--I will just call you the mayor from 
South Bend----
    Mr. Buttigieg. Pete is fine.
    Mr. Gibbs [continuing]. And my director of the EPA in Ohio, 
Craig Butler, and my commissioner, mentioned some of the issues 
you have. Can you expound a little bit on what these consent 
decrees are doing? I know Craig Butler talked about your using 
an NPDES as permits, as a way, almost a de facto way, to do it 
permitting, I believe, or it sounds like.
    And this consent decree issue is compounding the program at 
any cost and not getting the job done, and how the integrated 
planning concept can interact with that. So I will let one of 
you guys go--you want to go first, Mayor? Go ahead.
    Mr. Buttigieg. Sure. So first of all, we would welcome the 
opportunity to work more closely with the Indiana Department of 
Environmental Management, IDEM. They have been a great partner 
with us and we do think that State-level handshake would be 
something that, if they were more empowered, would benefit us.
    The permit structure, we think, is a lot more flexible 
because, as you said, it does not lock us into something. Some 
of these long-term control plans, 20, 30 years, they just 
cannot possibly anticipate some of the technology changes that 
are going to happen.
    We developed the capability through that smart sewer system 
I mentioned to actually use real-world data for the first time 
and run thousands of simulations to figure out what would 
actually happen. And unsurprisingly, it revealed that there 
were some flaws in the original plan. The permit model would be 
much more flexible and would allow us to account for that.
    Mr. Gibbs. Go ahead, Commissioner.
    Mr. Portune. Representative Gibbs, thank you so much for 
asking the question. As you correctly point out, when the Clean 
Water Act was originally adopted, it was a true partnership, 
including Federal money coming to help implement Federal 
policy.
    Today, from the standpoint of counties, we find ourselves, 
with respect to Clean Water Act compliance, it being another 
unfunded mandate that is imposed on local communities along 
with all other obligations that we have to meet.
    The flexibility that is allowable with integrated planning 
will help us to prioritize what would get the biggest bang for 
the buck in terms of improvements among a whole menu of Clean 
Water Act programs and obligations. It will allow us to 
introduce new innovative means like watershed management, 
adaptive practices, green infrastructure approaches, that are 
more cost-effective, efficient, and affordable for locals to be 
able to meet the obligations.
    And the last thing I want to say is in deference to your 
time, my constituents want clean water. We are not approaching 
this as a means to backslide or anything like that with respect 
to the Clean Water Act. We want to comply with the obligations.
    But counties, cities, local governments, that is where the 
rubber hits the road. We cannot delegate down. We are asking 
for help so that we can afford to meet our obligations under 
the act.
    Mr. Graves of Louisiana. Director, go ahead.
    Mr. Butler. Mr. Chairman, Representative Gibbs, I will echo 
some comments here that Mayor Pete and Mr. Portune talked 
about. I think you are right. In Ohio we have got 89 
communities that are under some type of a requirement to manage 
the stormwater and combined sewer overflows. Seventy-two of 
those work directly with the State of Ohio.
    We take that innovative approach. We will use consent 
orders, but we will also use flexibility throughout the 
wastewater permit. We have got to reopen those permits in mid-
stride if we see new technologies come in for development. And 
we are very flexible. We look at and use green infrastructure. 
We look at and use asset management and integrated planning. We 
think it is a great tool.
    We talk with the other communities that perhaps are under 
the Federal consent orders. Many of these are billions of 
dollars. They are very lengthy. And frankly, once those consent 
orders are finished, it is very difficult to see them reopened. 
I think people misunderstand the idea of integrated planning. 
Therefore, you have many communities, even in Ohio, that have 
obligations under a Federal consent decree that are requiring 
them to spend more money than they otherwise would need----
    Mr. Gibbs. I am just about out of time. But would you agree 
that the Federal consent orders create more of a controversial 
relationship, and to integrate the permitting concept, could 
bring a partnership relationship and we would actually get more 
stuff done?
    Mr. Butler. I would agree with that. I think using this 
approach to the permitting process is a much more effective 
tool.
    Mr. Gibbs. Thank you, Chairman.
    Mr. Graves of Louisiana. Thank you.
    We are now going to go to Ms. Esty.
    Ms. Esty. Thank you, Mr. Chairman. Thank you to the panel 
for your thoughtful and grounded experience to help us fashion 
better, more flexible policies, which I think we are all in 
favor of stretching those taxpayer dollars to meet the 
competing needs, but without lowering standards.
    First question for the panel: All of you have highlighted 
the importance of Federal funds to help communities meet these 
water-related infrastructure needs. But as many of you know, 
the primary Federal program to provide this assistance, the 
Clean Water State Revolving Fund, was last reauthorized 30 
years ago.
    Today we have got a bipartisan bill to reauthorize it with 
increased funding, perhaps not to the tripled level that was--
much as I would like to do that, but to a greater level.
    Would you urge this Congress to finally reauthorize an 
increase in appropriations for the State Revolving Fund 
program? If we can just go right down the line because I have 
got a bunch of questions.
    Mr. Buttigieg. Sure. We would absolutely welcome that in 
South Bend.
    Ms. Esty. Thank you.
    Mr. DuPree. We would absolutely support. But, Madam 
Congresswoman, not at the expense of smaller communities.
    Ms. Esty. Absolutely.
    Mr. Portune. Congresswoman Esty, thank you. America's 
counties would welcome that as another important tool in the 
toolbox. But we would add that flexibility to be able to 
introduce green infrastructure and things like that help us 
save money as well, and that is critically important as well.
    Ms. Esty. Absolutely.
    Mr. Butler?
    Mr. Butler. Mr. Chairman, Representative, the State 
revolving loan programs are critical to all of the States, 
including Ohio. They are our primary vehicle helping all 
communities--large and small, rich and poor--to help meet these 
obligations for clean water and drinking water needs.
    Mr. Graves of Louisiana. Thank you.
    Mr. Spearman?
    Mr. Spearman. Yes, ma'am. Most definitely. And I would also 
encourage the subcommittee and committee to look at ways to 
simplify the use of these funds on the local level. Sometimes 
the biggest problem we have, with deference to my person from 
the EPA next to me, the States sometimes are one of the 
holdbacks in using it; and also increasing the use for 
stormwater activities.
    I represent primarily MS4 [municipal separate storm sewer 
systems] communities, working with them that have different 
issues than the CSO [combined sewer overflow] and SSO [sanitary 
sewer overflow] communities. So making sure that they 
understand that they can use these funds also.
    Ms. Esty. Thank you. Mr. Levine?
    Mr. Levine. Absolutely yes. As you heard in my 
recommendations. A significant increase, we believe, is needed, 
and some changes in the cap in order to encourage more grants 
and encourage more environmentally innovative projects.
    Ms. Esty. Absolutely. So I think we are all in agreement, I 
know. Chairman Graves and I have talked about this, the need to 
integrate new processes, new ways of doing things, again to 
have the best technologies and the best practices in place and 
not be locking in older, less useful, and often more expensive.
    So we are committed to doing that, and your support as we 
go through this process will be vitally important for us to 
design the most appropriate legislation going forward that 
provides that measure of flexibility.
    Second question: I would contend that in addition to 
providing additional resources for those unfunded Federal 
mandates, which those of us who have served in local office all 
really hate because our taxpayers, we have got to raise the 
money from them.
    The Federal Government, I believe, should be exploring 
whether targeted Federal subsidies to assist individual 
households, lower income, which many of you flagged that 
challenge. And when you are serving a community, even rich 
communities have people who have economic challenges.
    As you may know, in 1990 Congress authorized the LIHEAP 
program, the Low Income Home Energy Assistance Program. I know 
we use it extensively in every community in Connecticut. Would 
you support something similar to that concept, to help 
communities that low-income folks across the country, but 
particularly in communities that are hard-hit, to have that 
sort of a program like LIHEAP but for water resources?
    Mr. Buttigieg. Yes. Certainly a community like ours could 
put that to work right away.
    Ms. Esty. Thank you. Mayor DuPree?
    Mr. DuPree. Yes, Congresswoman. That would be something 
that we would use except for the fact that in some States, they 
do not allow you to have a two-tiered process. You cannot pay 
two different prices.
    The other thing that I would say on that is that median 
income, that I think has been said by this whole process, needs 
to be revisited and maybe set it based on a lower tier than on 
a 2-percent median income.
    Ms. Esty. All right. Thank you.
    Mr. Portune. Congresswoman Esty, thank you for introducing 
another innovative approach to this. The main reason why clean 
water compliance is not happening across the board is due to 
the lack of funding, and that is directly related to the 
overreliance on the median household income approach to all of 
this.
    So anything that would help to reduce reliance on MHI as a 
primary tool with respect to funding and would help our poor 
and the working poor to be able to assist in the obligations 
under the act would be another important tool in the toolbox.
    Ms. Esty. Thank you.
    Mr. Butler. Bringing new tools to the table to help us with 
low-income communities, in addition to the good work through 
the SRF programs, would be welcome.
    Ms. Esty. Thank you.
    Mr. Spearman. When I go around and create stormwater 
utilities, one of the main issues that the local governments 
have is how it will affect their low- and moderate-income 
folks. And this type of program would definitely help these 
communities generate the needed funds they need to help support 
the other goals of the Clean Water Act.
    Mr. Levine. Yes, absolutely again. And the bill that is 
pending right now to create a pilot, we believe, is a good 
start but actually should be expanded as a nationwide program, 
exactly as you say, similar to the LIHEAP program and fully 
funded to meet the needs.
    Ms. Esty. Exactly. Thank you very much and I see we are 
over. I appreciate your indulgence, Mr. Chairman.
    Mr. Graves of Louisiana. Yes, ma'am. Thank you very much. I 
recognize myself for 5 minutes.
    In a previous life, I served as a non-Federal partner with 
the Corps of Engineers on a number of projects, and we grew 
increasingly frustrated with that relationship. And there were 
a number of projects where we found that we could build the 
entire project by using the Corps of Engineers cost estimates 
and our 35-percent cost-share.
    We could build the entire project. If I can say that again. 
So if it was a $100 million project, our cost-share was $35 
million. There were a number of projects where we could build 
the whole thing for $35 million.
    Mayor Pete, I want to go back to something you said, if I 
heard you correctly. You said that--according to my notes--$810 
million is the value of the consent decree that you are facing 
right now. Is that accurate?
    Mr. Buttigieg. That is right, not including the financing 
cost.
    Mr. Graves of Louisiana. Yes. Which you said would perhaps 
exceed $1 billion.
    If I heard you correctly, you said that with flexibility, 
including the use of green infrastructure, you believe that 
that cost could be reduced to what again?
    Mr. Buttigieg. That is right. So we got about $150 million 
in already. The remaining $700-some million could be reduced to 
$200 million if we are allowed to use the new approach.
    Mr. Graves of Louisiana. It is extraordinary. And look. We 
can certainly find a lot of things to fight about, and that is 
always fun to do. Of course, I am kidding. But listening to all 
your testimony, each one of you, I think, used the word 
``flexibility.'' You stressed the word ``flexibility.''
    I do not think there is anyone who is sitting on the panel 
who has any desire to trash our environment or have your 
citizens living in a State that is unhealthy and an environment 
that is unhealthy, where you risk your citizens' health and 
safety. I assume that is OK to accept.
    In many cases, folks think that all we need to do is throw 
more money at problems. And in some cases, that is the 
solution. But I think in this case, it may be a little overly 
simplistic and unrealistic in some cases because I know that 
local governments are strapped for cash. I know that many 
States, including my home State, we are running into 
significant financial programs. And the Federal Government, of 
course, with our $20 trillion debt, does not have unlimited 
financial resources.
    I really think it is important that as we move forward on 
this legislation, that we continue to get your ideas on that 
flexibility. And I mentioned earlier that the city of New 
Orleans is under consent decree. The city of New Orleans, we 
worked with them in my previous life, where we actually began 
building wetlands assimilation projects to complete the 
treatment process in the central wetlands, working with St. 
Bernard Parish and the city of New Orleans, where we are 
restoring wetlands, which is an objective we have, and at the 
same time doing the final stages of sewer treatment.
    Do any of you--Mayor DuPree, perhaps--do you have any other 
thoughts on the flexibility? And if you were given more 
flexibility, any assessments in terms of what kind of reduction 
that would potentially have in your work?
    Mr. DuPree. Yes, sir, Mr. Chairman. I honestly believe that 
if we look at partnerships--and I am talking about Federal, 
State, and local--we are under a Federal consent decree right 
now. We are under a Federal court order.
    If we had the ability to partner, we could do things like 
public-private partnerships that would lower the cost. We could 
do things like design, build, operate, which would lower the 
cost, if we could work and have the opportunity to do that. 
Some States do not allow you to have that.
    So if we had the support of the Federal Government and the 
State Environmental Quality, then we could probably lower--we 
could lower those costs because then there is a partnership. 
And we are not asking for money then; we are asking for 
innovative ways and flexibility to do things we are not allowed 
to do at this point.
    Mr. Graves of Louisiana. Thank you.
    Mr. Spearman, I assume you have multiple clients that you 
work with. Do you have any examples or anecdotes of cost 
reductions that would occur as a result of flexibility, and 
perhaps even better environmental outcomes?
    Mr. Spearman. Well, I think that there are a lot of options 
available to us today. We have problems with the States and 
sometimes the regions in EPA, not necessarily being flexible 
enough to allow the things that are out there. I mean, we have 
had a policy on integrated planning and permitting for several 
years now and you are having to look at codifying these 
requirements to force the issue forward. And that is something 
that is very important.
    There seems to be a disconnect sometimes between 
Washington, the region, and then the States, and down to the 
local level. So anything that we can do there to improve those 
communications and direction, and I think this hearing is a 
great start at that.
    Mr. Graves of Louisiana. That was actually going to be my 
next question, was I am curious with the integrated planning 
policy implemented in 2012. Do any of you have any inside 
information or any insight as to where this disconnect is 
occurring in terms of between the reliance on enforcement 
rather than having a more flexible approach, as identified or I 
think contemplated in the integrated planning process?
    Mr. Portune. Mr. Chairman, if I may, Todd Portune on behalf 
of NACo. And thank you for raising the issue.
    I have been involved in working on this matter dating back 
to 2007, testified several times before this subcommittee in 
connection with the issue. The integrated planning policy that 
was brought forward in 2012, I will acknowledge, was a great 
step forward.
    But what has happened since then is rather than EPA working 
more toward--the flexible approach has been more reliant on 
consent decree-enforced litigation largely because in our 
opinion, what we have seen, largely because the data that 
supports the old gray-build approach to fixing sewers has been 
around for so long, it is much more reliable.
    And with respect to enforcement activity, there is a 
greater need or desire in the regions to rely on all of that 
data. The green infrastructure data is not quite as voluminous 
as the gray infrastructure data. So there has been a natural 
tendency to fall back on gray-build enforcement approaches, 
rather than moving forward with the flexible green-build 
approach.
    I want to add very quickly to your previous question, 
though----
    Mr. Graves of Louisiana. If you could please wrap up, I am 
over time.
    Mr. Portune. Oh, I am sorry.
    Mr. Graves of Louisiana. Thank you.
    I think we are going to go to Ms. Johnson for 5 minutes.
    Ms. Johnson of Texas. Thank you very much, Mr. Chairman and 
Ranking Member, for holding this hearing. I do not know that 
there is a subject that is more important to the citizens or to 
municipalities than relying on the water that we drink. And we 
know there are many challenges that States and localities face 
in coming into compliance with the legal requirements of the 
Clean Water Act--though I think we have done a fairly good job 
in this country.
    Back in 2007, when I chaired this subcommittee, President 
Bush did a study--or his administration did a study--that we 
needed to invest $19 billion every term for the next 20 years 
to bring us up to level. We have never been able to meet that 
goal, though we have made some strides, I think, in ensuring 
clean water.
    Limited resources, population growth, aging infrastructure, 
and other factors pose additional and costly obstacles for 
States and municipalities in an effort to respond to both their 
legal requirements and the needs of their communities. 
Integrated planning is one way to address these challenges, and 
in certain cases, when a city fails to meet these requirements, 
civil penalties are assessed.
    And my question--let me start with Mr. Buttigieg from South 
Bend, Indiana, the city of Notre Dame. I graduated from that 
area before you were born.
    [Laughter.]
    Ms. Johnson of Texas. Could you--or any other member, for 
that matter, on this panel--discuss what might you believe is a 
more reasonable alternative to civil penalties for local 
governments, which would also ensure that municipalities 
continue to make good faith efforts to improve their water?
    Mr. Buttigieg. Thank you, Representative Johnson, and thank 
you for speaking to the importance of the issue. I think this 
goes to the question of what the relationship is between cities 
and the Federal Government. Are we being regarded as a co-
regulator and a partner, or are we being regarded as a 
regulated polluter?
    And I think that civil penalties wind up, in a way, robbing 
Peter to pay Paul, especially in a low-income community, where 
you are effectively penalizing the very residents and citizens 
that we are trying to serve and protect.
    You could envision another approach where, for example, if 
it came to that, there would be an enforced commitment that 
their dollars would go into some kind of fund that would 
continue to benefit residents. But I think the most important 
thing is the mentality, that it focuses not on penalizing those 
units of Government that are trying to do the right thing but 
coming up short because of the limitation in resources, but 
rather only those that are refusing to work in good faith.
    Ms. Johnson of Texas. Thank you. Anyone else wish to 
comment--yes?
    Mr. Butler. Mr. Chairman and Representative Johnson, thank 
you for that question. One concept that we have not talked 
about and we use a lot in Ohio--and other States do, too--is 
using supplemental environmental programs in lieu of civil 
penalty.
    We agree with you that the idea, also articulated by Mayor 
Pete, of taking a civil penalty and having that money come to 
the State or the Federal Government and then not seeing it 
invested back into the community is something that we think is 
counterproductive in many cases.
    There may be an opportunity in some cases where you have to 
use civil penalty as a tool, but in many cases we think that 
money should be and could be plowed back into the community 
through supplemental environmental projects on other further 
upgrades to the drinking water or wastewater systems, green 
infrastructure, integrated planning, or asset management, or 
any small number of tools where you can invest those dollars 
and see them pay multiple dividends to the community.
    Ms. Johnson of Texas. Thank you.
    Mr. Portune. Congresswoman Johnson, Mr. Chairman, it is an 
excellent question. And with respect to the position of 
counties, the issue of civil penalties is counterproductive to 
what we are all trying to accomplish here because it does 
divert money away from the very needs that are at hand at a 
time when the availability of funds is so restricted and so 
narrow with respect to the matter at hand.
    Flexibility, the ability to apply things that provide more 
efficient and effective ways to do this that save money, is 
also something that is critically necessary. And we would also 
add that a focus on water quality, instead of just simply 
volume reduction in approaches to things, puts the issue right 
back where it needs to be.
    But at the end of the day, we want to have a partnership 
with EPA and not be considered--and I think Mayor Buttigieg put 
it very well--as regulated water polluters. We are all working 
for the same thing.
    Ms. Johnson of Texas. Thank you very much. My time has 
expired.
    Mr. Graves of Louisiana. Thank you. I recognize Mr. Massie 
for 5 minutes.
    Mr. Massie. Thank you, Mr. Chairman.
    I represent 20 counties in northern Kentucky, but 3 of 
those counties are within a sanitation district that has about 
100,000 wastewater accounts. They are under consent decree. 
This is Sanitation District 1. It is Boone, Kenton, and 
Campbell Counties, directly across the river from Cincinnati.
    When they signed their consent decree, they thought they 
were signing up for a $700 million burden. But it has now 
become a $2 billion burden. I just did some quick math here. 
Two billion dollars divided by 100,000 accounts is $20,000 per 
account. That is like an economic blight on the region.
    Every household that has this account is now encumbered 
with that, and if you build a new house there, you basically 
are going to take $20,000 off the long-term property value 
because now you have the benefit of being covered by this 
legacy obligation.
    There are 300,000 people within that district. If you just 
go every man, woman, and child, it is about $7,000 they owe to 
this. At this scale, it almost seems like they could build 
their own wastewater treatment facilities at every house at 
$20,000 an account. So there has got to be something more 
efficient here. Households are ultimately, as their rates go 
up, they forgo preventative maintenance on their houses and 
things.
    Mayor Buttigieg, I want to ask you, what are some of the 
things that you are not able to do now that you would like to 
be able to do? Because I would like for my community to have 
that flexibility as well.
    Mr. Buttigieg. Well, a lot of it is this green stormwater 
infrastructure. If we are given the flexibility to use that in 
our approach, then we can prevent a lot of the water from going 
into the system in the first place. That is the appeal of rain 
gardens, green roofs, permeable concrete that effectively 
drinks the water rather than it sort of sheeting off and going 
into the system.
    It is a lot more attractive than a system of gray 
infrastructure that only contemplates tunnels and tanks. At one 
point we actually had to contemplate, in order to meet the 
original consent decree, we were talking about deep rock 
tunneling. It would be like building a subway in a city of 
100,000 people. Much as I would love to have a subway, it did 
not really add up.
    Mr. Massie. So you would need a submarine for that subway, 
too.
    [Laughter.]
    Mr. Buttigieg. We are getting smarter and smarter about how 
to do this, and that is why we think integrated planning makes 
so much more sense. But the flexibility, and to go to an 
earlier question that was raised, is also very uneven in its 
application.
    Whenever we get together in the mayor's water council, we 
are always comparing notes. How is your region? Did they let 
you do this? Ours is not. Who is better? Who is worse? It seems 
that even if you feel that the EPA leadership in Washington is 
singing the same tune as we are about some of these integrated 
approaches, sometimes it has to go through a bit of a gap in 
the regional offices. And we know that----
    Mr. Massie. So there is too much gray area in the gray 
water?
    [Laughter.]
    Mr. Buttigieg. That is one way of looking at it, 
Congressman, yes.
    Mr. Massie. That was my only question. I would like to 
yield the remainder of my time to Congressman Gibbs.
    Mr. Gibbs. Well, on the consent decree, we have really 
brought that out. But I want to have Director Butler talk a 
little bit more on the integrated permitting, some of the 
benefits we have seen, and in the Columbus blueprint plan you 
basically use--I think you have done that integrated planning 
in a de facto way using the NPDES permitting process. Can you 
expound on what has happened and the successes?
    Mr. Butler. Sure. Mr. Chairman, Representative Gibbs, 
Columbus is another place where a multibillion-dollar project 
has recently, in the past few years, come back to us and we 
have talked not only about green infrastructure, but about the 
comprehensive integration of integrated planning. This was 
really not a concept that they were familiar with when they 
signed onto the consent decree in the mid-2000s.
    So they went so far as to not only just include the gray 
water, but they started looking at wet weather and stormwater, 
integrating that into a total plan, looking at green 
infrastructure, where it was appropriate and where it made 
sense, rebundling through our NPDES permitting process while 
they were still under consent order. That saved them a 
multibillion-dollar project and it saved them hundreds of 
millions of dollars a year.
    I just want to give one caution, if I am permitted here. 
Green infrastructure is a new concept. You have to be very 
careful in how you use it. Sometimes you do not get the 
benefits that you expect, and frankly, it does not always save 
you money.
    But there still is an inherent benefit that comes along 
with it. You are able to then open up some green spaces versus 
building a tunnel. You are able to bring in some stormwater 
infiltration concepts. It really starts bringing some community 
vitality and green space back in, which then raises the overall 
value of the property values.
    So it is a real balance. It is a tool that should be 
integrated into this integrated planning model. But it does not 
always work. You just have to be careful and make sure that you 
use it appropriately.
    Mr. Gibbs. Thank you. Thank you, Chairman.
    Mr. Levine. Mr. Chairman, might I add briefly to that 
response?
    Mr. Graves of Louisiana. I think we are out of time, but 
will see if we can get back to you.
    Mr. Levine. Thank you.
    Mr. Graves of Louisiana. Let's see. I guess we are going to 
recognize Mr. Lowenthal for 5 minutes. The gentleman from 
California.
    Dr. Lowenthal. Thank you, Mr. Chair. And I want to also 
thank all the witnesses. It has been very educational for me 
listening to the importance of integrated planning. And you 
have clearly educated us on the challenges that you all face in 
terms of what local governments and municipalities have to do 
in complying with the Clean Water Act, their requirements, with 
your limited resources. And I appreciate that EPA has begun to 
work with you about developing new approaches that lower cost 
but still meet water quality and environmental standards.
    But I want to emphasize, just before I ask the questions, 
something that has been brought up by many of you on the panel, 
that we are not talking about the weakening of the standards 
that are so important to the health of our community. And this 
should not be used as a rollback of the Clean Water Act. We 
have seen examples when we have done that, when we have let 
costs just dictate it, i.e., Flint, Michigan, where costs 
dominated what could be done.
    I am very concerned because as we move forward, that we 
will see in the next budgetary process that the President has 
recommended a 31-percent cut to the Environmental Protection 
Agency. I think that would be devastating. That would be just--
all the discussions that we have had today, I think, would end.
    My first question is for Larry Levine of NRDC. In your 
testimony, you expressed support for the general concept of 
integrated planning. But like what I just mentioned, you 
caution us that not all integrated planning bills currently 
before this subcommittee approach integrated planning in the 
same manner. And you suggest that House bill 465 ``would roll 
back existing standards.'' It would roll back the Clean Water 
Act protections.
    Can you talk to us a little bit on how you see H.R. 465 
weakening existing Clean Water Act protections under the guise 
of integrated planning?
    Mr. Levine. Yes. Thank you, Mr. Lowenthal. So in several 
ways, the bill would roll back key protections under the act.
    The language in the bill would use both cost, under the 
heading of economic affordability, and a new terminology in the 
act of ``technical feasibility.'' And the definitions for those 
terms would use those to do an end run around water quality 
protections currently in the act.
    The Clean Water Act already includes ways to account for 
cost and technical feasibility, such as the process for doing a 
use attainability analysis or a variance from water quality 
standards under very limited circumstances and subject to the 
approval of EPA, just as any other change in a State water 
quality standard must be approved. The bill, unlike that 
process, would inject these cost factors into individual 
permitting decisions at the discretion of the individual 
permitting agency.
    Other language in the bill treats wastewater and stormwater 
as though it were not a core public service. It indicates the 
importance of balancing the cost of Clean Water Act compliance 
against money that might be diverted from other ``core public 
services.'' That is a misframing of the entire issue. I think 
we all would agree that urban and municipal wastewater, 
stormwater, drinking water services are all a core public 
service.
    The bill also essentially puts on blinders to ways that 
municipalities and utilities can reduce cost burdens on low-
income households while generating the revenue that is needed 
to meet Clean Water Act goals. So, for example, rate 
structures, while there are State limitations in some places on 
the way that local rates can be structured, there are also many 
things that can be done to have more equitable rates that place 
costs more fairly on who is putting the most burden on the 
system, which will tend to help low-income households.
    The bill also substitutes this notion of ``reasonable 
progress'' for actual compliance. Existing law has requirements 
for what a compliance schedule must look like and what it must 
achieve. A compliance schedule must require compliance as soon 
as possible with interim milestones along the way to ensure 
accountability for making those steps as soon as possible 
toward ultimate compliance. It does not, under current law, 
lower the bar for what ultimately has to be achieved at the end 
of the day.
    And I will briefly mention two more points. The bill fails 
to account for the benefits of investing in clean water, while 
focusing exclusively on the costs. It is important that 
communities have a return on the investment they make. It is 
not simply a liability.
    And finally, other language in the bill provides 
essentially a one-way ratchet to weaken requirements and 
integrated plans. There is language that speaks of revisiting 
plans when permits are renewed in order to consider modifying 
or removing requirements to ``help the municipality comply.'' 
That clearly seems to be an intent to consider weakening plans 
over time rather than ensuring compliance in the long run.
    Dr. Lowenthal. Thank you. And Mr. Chair, just before I 
yield back, I would like to say my legislative director just 
received her Ph.D. from the University of Notre Dame, and she 
is always talking about Mayor Pete in a very positive way.
    Mr. Graves of Louisiana. Fantastic. We are looking for 
better environmental policy out of you now.
    [Laughter.]
    Mr. Graves of Louisiana. Thank you, Mr. Lowenthal.
    We are going to turn to the gentleman from Texas, Dr. 
Babin.
    Dr. Babin. Thank you very much, Mr. Chairman, and thank the 
witnesses for being here. Appreciate you.
    I am not real sure who to ask this question of but I think, 
Mr. Butler, it might be to you. But if anyone else would like 
to chime in on this, I would appreciate it.
    According to a recent Boone and Crockett Club--if you are 
hunters, you have heard of Boone and Crockett--but according to 
a recent Boone and Crockett Club analysis of the ``Function 
300'' section of the Federal budget, it says, ``Natural 
resource programs can provide the underpinning for a strong 
economy and rural quality of life.''
    The report further says that, ``The sum of our investments 
in conservation has been to secure the foundation for the use 
and enjoyment of America's natural resources.''
    The city of Orange, Texas, which is in my district, located 
on the Louisiana border in the southeast Texas corner, hosts 
one of the Nation's top-rated bass tournaments on the Sabine 
River at Toledo Bend Reservoir. And the local Chamber of 
Commerce hosts several other water-based tourism events 
annually that epitomize the best of the small-town, family-
friendly, outdoor recreational lifestyle.
    Yet there are two bayous nearby that need urgent attention, 
and the water utility ratepayers of some neighboring 
communities have fixed income residents and cannot afford 
higher taxes. These are communities that lost population after 
the devastation of Hurricane Rita in 2005.
    They qualify for USDA community assistance, but they are 
not able to make capital investments in their local 
infrastructure because building permits are blocked because of 
water quality issues that they simply do not have the resources 
to fix on their own.
    So I would ask this question: Do you believe Federal 
priority, a focus for water quality grants, should be focused 
on those types of circumstances, where communities lack the 
local resources to fix the problems and therefore cannot grow 
their way out to a better economy because of the EPA denial of 
permits due to water quality? What do you suggest is a remedy 
for this obviously catch-22 situation?
    Mr. Butler. Mr. Chairman, Representative Babin, I know 
about the Boone and Crockett Club but I am not a member and I 
wish I were. So Ohio is not much different. Lake Erie is the 
wildlife capital of the world; it has $14 billion of annual 
economic impact in the State, so truly recreation drives a lot 
of investment for sure.
    I will speak to your question this way, which is the State 
revolving loan funds we have talked about under the Clean Water 
Act, the State of Ohio has capital grants of about $100 million 
a year. We turn that into about $1 billion every year of 
investment in drinking water and wastewater infrastructure.
    I noted in my testimony we have about $14 billion of 
infrastructure need. So while we think it is a fantastic story 
to tell about what we have done, it does not really catch up to 
the need that we have that continues to grow in the States. 
That need is particularly skewed, if you will, towards low- and 
moderate-income communities.
    As much money as we can offer through loan programs, or 
even a modest amount through principal forgiveness of grants, 
as Mr. Levine talked about, the need is substantial, whether we 
are combining that just with our State revolving programs or 
combining it with USDA dollars or other Federal and State 
dollars.
    It is very, very difficult, and there are always more 
communities on the outside looking in than we can provide 
funding for to help them out of this catch-22 situation. They 
cannot go and offer economic development either through 
recreation or through business development because they do not 
have the capacity in their wastewater facilities to upgrade 
those systems to offer that capacity for economic development.
    So while I think States are proud of their investments 
through the State revolving programs, the catch-22 that you 
mentioned is something that still exists in a significant way 
and is something that we need to find the solution for going 
forward.
    Dr. Babin. I certainly hope so. In just a few seconds, 
would somebody else like to----
    Mr. Buttigieg. Very briefly, if I may, Mr. Chairman, 
Congressman----
    Dr. Babin. Yes, sir.
    Mr. Buttigieg [continuing]. We believe that one of the 
virtues of integrated planning is that smaller communities can 
pool their resources. So when you are in an area like that, 
instead of three communities doing three tanks and three 
tunnels, maybe one can do a tank and a couple others can do 
green infrastructure. So coming together, we think, allows more 
efficient problem-solving even among communities joining 
forces.
    Mr. DuPree. Yes, sir. And at the same time, we used to talk 
about affordability. It does not take into account the CSOs or 
the SSOs. It did not--that is all it does. It does not pull in 
drinking water because it is so expensive. And so when we talk 
about subsidies for water, we need to make sure that although 
we are increasing the State revolving loan fund, we do not take 
money from other programs that they could benefit from.
    Dr. Babin. Great. My time has expired. Thank you very much. 
Appreciate it.
    Mr. Graves of Louisiana. Thank you. I will now go to the 
gentlewoman from Illinois, Mrs. Bustos.
    Mrs. Bustos. Thank you, Chairman Graves.
    First of all I would like to give you a little background 
and then I will get right into my questions. This will just 
take a second. But I represent part of a city called Peoria, 
Illinois. You know the old saying, ``Will it play in Peoria?'' 
A town of 115,000 people. The Illinois River runs through it.
    So right now they are looking at what would be considered 
an innovative, cost-effective solution using green 
infrastructure to address combined sewer overflows. But even--
as we call it, it is termed cost-effective; it has got a $200 
million price tag. All right? So pretty costly.
    And I know that Peoria and towns across the country need 
the EPA to be partners in working to improve water quality and 
upgrade our aging water infrastructure. And I know that also 
means that we do not need to weaken the Clean Water Act, but it 
does mean that we need to give our towns, our cities, tools to 
look at integrated planning and resources they need to support 
investment in water infrastructure, and also to create jobs. So 
certainly appreciate all of you being here and testifying 
before us today.
    So in Peoria--this is my question now--this plan is to 
reduce the water overflow, the combined sewer overflow, into 
the Illinois River while also beautifying the streets and the 
areas in the city's older neighborhoods.
    So my first question will be for Mayor DuPree. You 
mentioned that your city is part of the EPA's green 
infrastructure pilot program?
    Mr. DuPree. That is correct.
    Mrs. Bustos. How did your city become interested in using 
the green infrastructure to help address the water quality? And 
do you have thoughts on how the program is going so far? If you 
could share that.
    Mr. DuPree. Well, I think it is going well. One of the 
things that we had, not only are we under a consent order, an 
amended, agreed order, we also are working with EPA on the 
sanitary sewer overflows. They have cited us for almost 
everything you can count on.
    We had to look for innovative ways in order to make that 
happen. And this is actually a way that EPA and the city and 
the State came together to form this coalition so that we could 
come up with innovative ways to do something. That is what 
integrated planning is all about, is about seeing if it is 
affordable.
    We understand that if it is not affordable, it is not 
sustainable. So you have to work all those things together, and 
that is a way the partnership actually works. And hopefully 
they are going to come down in the next month or so and we are 
going to actually have a schematic to work on green 
infrastructure. And hopefully it will be a pattern that can be 
used across the United States.
    Mr. Portune. Mr. Chairman, Representative Bustos, if I may, 
in Cincinnati, Hamilton County, we also had an approved green 
infrastructure alternative to what was originally in our 
consent decree, which was a massive $500 million deep tunnel 
approach.
    The actual cost of our green approach to do the same thing, 
reducing the CSO issues and the volume of water that we were 
required to address, was almost cutting that in half. Our final 
cost on it is projected to be $244 billion versus $500 billion. 
It is actually a little bit less than half of the cost was 
saved.
    But there is one other thing about cost savings that no one 
has brought up that I want to also quickly add. Green 
infrastructure keeps water out of the sewer system. That 
produces an additional benefit to operational costs because you 
are not treating so much volume at the back end. So not only 
does it reduce costs on the front end in terms of capital 
expenses, but operational expenses of the sewer district are 
reduced as well to increase the benefit.
    Mrs. Bustos. All right. Thank you, sir.
    Mr. Levine, if green infrastructure is cost-effective and 
provides benefits in terms of quality of life and public 
health, why are more communities not using it? And do you have 
thoughts on how Congress can help with that?
    Mr. Levine. That is a great question. It is important to 
recognize that a lot of communities are using it. Especially in 
the last half-dozen years or so, as EPA has made important 
steps forward and called attention to the ways in which the 
existing Clean Water Act scheme allows for, and can even be 
used to encourage, green infrastructure in permits as well as 
consent decrees to meet CSO obligations, to meet municipal 
stormwater obligations, to meet in some cases sanitary sewer 
overflow obligations.
    We have talked a lot about flexibility in the testimony and 
responses to questions and answers. I think, really, the word 
is being smart, is what I would say. It is not about new 
flexibility that is needed. It is about doing things in a smart 
way. And in many instances, as Mr. Butler pointed out, for 
example, green infrastructure will be the smartest way to do 
it.
    In some other instances it may not. But being smart about 
this allows us to be cost-effective, allows us to achieve the 
maximum benefit for the investment, not only the benefits to 
clean water but the benefits to neighborhoods, the benefits to 
communities. And in fact that also, when you consider the wide 
range of benefits, allows you to tap into additional sources of 
money as well.
    When you are serving multiple benefits, you can tap into, 
for example, community revitalization dollars, or 
transportation dollars that are going towards rehabilitating 
streets, and get green streets as part of that project, and get 
the water benefit as well.
    So I think part of it is a need for greater realization and 
understanding among those communities that have not yet done so 
of what all those multiple benefits are. I think Congress can 
certainly encourage that with the ideas like, in a couple of 
the bills, dedicating EPA resources towards promoting green 
infrastructure, establishing that as an office within EPA; and 
then, of course, by using Federal funds such as the SRF to 
direct dollars towards these sorts of projects that have tended 
to be underfunded the way States have used the SRF in the past.
    Mrs. Bustos. All right. Thank you. My time is expired. I 
yield back.
    Mr. Graves of Louisiana. All right. Thank you.
    I am going to go to the gentleman from Texas, Mr. Weber, 
for 5 minutes.
    Mr. Weber. Thank you, Chairman.
    Mayor Pete, pronounce your last name for me.
    Mr. Buttigieg. Buttigieg.
    Mr. Weber. Buttigieg?
    Mr. Buttigieg. Yes, sir.
    Mr. Weber. Have you had that name long?
    [Laughter.]
    Mr. Weber. You made an interesting statement earlier. You 
said you felt like the cities should be regarded not as 
regulated polluters but--what was the other half of that?
    Mr. Buttigieg. Partners, or even co-regulators.
    Mr. Weber. Co-regulating partners. OK. That is an 
interesting concept, and I agree with you, by the way.
    And Mayor DuPree, you know the answer to this, or you may 
both know the answer to this. How many--you all are up here 
with the Council of Mayors. Is that correct?
    Mr. DuPree. National League of Cities.
    Mr. Weber. National League of Cities?
    Mr. Buttigieg. I am here with the Conference of Mayors.
    Mr. Weber. Repeat?
    Mr. Buttigieg. I am here with the U.S. Conference of 
Mayors.
    Mr. Weber. Conference of Mayors. So how many mayors' cities 
are reflected in here, Pete, with your organization?
    Mr. Buttigieg. The Conference of Mayors is 1,400 mayors 
overall, some but not all of which have CSO issues.
    Mr. Weber. 1,400. And I see the answer to the League of 
Cities has been delivered.
    Mr. DuPree. 19,000 cities.
    Mr. Weber. 19,000 cities. OK. And I will go right over to 
counties here, Mr. Portune. Is that how you say that?
    Mr. Portune. Yes, sir, Congressman Weber. Thank you. 3,069 
counties in America.
    Mr. Weber. 3,069 counties in America. Do any of you have 
any idea--when you talk about consent decrees or fines that 
have been levied if you will, do any of the three of you, or 
any of you at the panel, have any idea what the sum total of 
that dollar amount is?
    Mr. Buttigieg. I would refer you to the written testimony 
that is submitted. There is an Appendix 1 from the U.S. 
Conference of Mayors testimony listing out individually--I do 
not see a total here, but it certainly runs well into the 
millions among the cities that have been fined.
    Mr. Weber. Just into the millions?
    Mr. DuPree. I would probably say it would be more than 
that. I mean, if----
    Mr. Weber. Right.
    Mr. Portune. Congressman, if I may, this is not fines, but 
there was a count done. There are 781 counties, cities, or 
sewer districts that are involved in consent decrees. EPA 
estimates the cost of compliance with those consent decrees to 
be $150 billion. We have also received estimates that suggest 
that the number may be close to $500 billion. Regardless of how 
you look at it, it is a lot of money.
    Mr. Weber. Oh, absolutely it is. So that is the vein I am 
in. So if it is $150 billion or $500 billion--let's just take 
an average. Let's say $250 billion. All right? What is that, 
one-quarter of a trillion dollars? You know, $100 billion here, 
$100 billion there, pretty soon you are talking about real 
money.
    Mr. Buttigieg. Yes, sir.
    Mr. Weber. So do you know the fines as related to that? 
Anybody? What I am getting at is what if we could take the 
money that the cities are having to pay and apply it to that? 
Any kind of ratio? Anybody have any kind of idea?
    Mr. DuPree. I do not have a ratio, sir, but we have worked 
with the EPA on this itself in order to put those monies back 
into the community. I think that is what we have been talking 
about.
    Mr. Weber. Sure.
    Mr. DuPree. Instead of actually fining them and they are 
going off to an abyss somewhere, actually put them back into 
planning to make projects work better. But in order to do that, 
there has got to be a partnership. You have got to start 
working together and not just arbitrarily----
    Mr. Weber. That is why I liked Mayor Pete's comparison 
there. Not a regulated polluter but a--what was it?
    Mr. Buttigieg. A co-regulating.
    Mr. Weber. A co-regulated partner, I think was the word you 
used, which I like those terms better.
    So someone said earlier up here from this side that the 
fact that the EPA was getting cut 30 percent was probably 
problematic. But what if we took those regulators and those 
salaries and all the money that is spent from the EPA's 
standpoint and we said, look.
    If we got regulating partners in the cities and the 
counties, would we really need that much Federal regulators? I 
mean, if their job is to go down and tell you what you already 
know is wrong, what you already know needs to be done, and by 
the way, we are going to fine you for that? Would it not--Mr. 
Butler, you want to weigh in on that?
    Mr. Butler. Yes, please. Mr. Chairman, Representative 
Weber, through the Environmental Council of the States, the 
organization represents all of the States, we have engaged with 
new Administrator Pruitt under his concept of cooperative 
federalism. And in short, I think what he means, and we 
understand and agree with, is how do you reset the relationship 
and have this conversation between the Federal EPA and States? 
We are co-regulators.
    How do you set the arrangement between us? We look at what 
they are good at and what they should do versus what the States 
should have primacy for since we are fully delegated States. We 
welcome that conversation. We are having that now under this 
idea of cooperative federalism.
    So frankly, how do you have the Federal EPA get out of the 
way of the States so we can do what we need to do in many 
cases? We do not mean that in a way that indicates they do not 
have value. We think that they do. But frankly, there is a 
level of duplicity in many cases that we think that there is 
not value. And you could take----
    Mr. Weber. Oh, there is value. We are paying for that. You 
can put a dollar value on the money that is being allocated 
that is not going to the communities. Yesterday there was a 
news release by the EPA--I do not know, maybe you all saw it--
it is WIFIA, Water Infrastructure Finance and Innovation Act, I 
guess is the----
    Mr. Butler. WIFIA.
    Mr. Weber. WIFIA. WIFIA?
    Mr. Butler. WIFIA. Yes, sir.
    Mr. Weber. WIFIA. OK. So you all are aware of it, there is 
$1.5 billion for water infrastructure projects. So we just got 
through saying earlier there was $150 billion to $500 billion 
in compliance actions, to come into compliance. Is that what we 
are saying? So what does this mean from yesterday? Does that 
mean you can get low-interest loans? What does that mean to 
cities and counties? Anybody?
    Mr. DuPree. Well, you have to apply, first of all. It 
started as a pilot program, I believe. And so I think it has 
been funded. You have to apply for it in the first round in 
order to participate in it. But it is more of a loan program 
than a grant program.
    Mr. Weber. So it does not fix the long-term problem if EPA 
tells you that you have problems, and now you need to pay them 
for telling you?
    Mr. DuPree. Well, it goes a long way to start the process. 
It takes a lot more than what Honorable Portune just rattled 
off with those numbers. The numbers, they are enormous, the 
amount of money it is going to take to fix the infrastructure, 
the water, sewer overflows that we have in America.
    The city of Hattiesburg is 133 years old. We have not only 
a storm sewer overflow, a sanitary sewer overflow problem, we 
have a wastewater problem, we have a water problem, and they 
all come on top of each other. And without us working together 
and planning to try to solve that problem and how do we pay for 
it, then it is not going to happen.
    Mr. Weber. I got you. Thank you. I appreciate that.
    Mr. Chairman, thank you for the indulgence. I yield back.
    Mr. Mast [presiding]. Any time.
    We will go to Mrs. Lawrence.
    Mrs. Lawrence. Thank you so much. I want to say for the 
record that being a member of the National League of Cities and 
the U.S. Conference of Mayors, I really do appreciate and thank 
you for being here, and the counties and the other speakers.
    Mr. Butler, I do want to say I too welcome a conversation 
about the States and the EPA interaction. Many of you know I 
represent the State of Michigan and lived through a horrific 
example of a failure of connection and checks and balances when 
it comes to water infrastructure.
    And when we are talking about this and we have to talk 
about the dollars, water is a basic human need and we have to 
treat it as such. It is not a luxury. And our investment in our 
water infrastructure is something we have kicked down the road, 
and I pray to God we never had another Flint situation. But 
that should have been our awakening. Nine thousand children are 
still suffering from the results of that. And so I am very 
passionate about this issue.
    Mr. Levine, you said in your written statement, ``The 
United States must significantly increase the investment in 
municipal water infrastructure to protect public health and the 
environment.'' In your opinion, if Congress does not increase 
the Federal investment in our Nation's clean water 
infrastructure, will acting on this planning legislation be 
enough for the communities to meet their clean water needs?
    Mr. Levine. Thank you. Absolutely not. It will not be 
enough by itself. There is a need for three things that go 
together. One is smarter efforts, along the lines of integrated 
planning, that will find the most cost-effective solutions to 
get us--if they can be implemented, get us where we need to go 
as quickly as possible, as cost-effectively as possible.
    Second is there need to be additional Federal and State 
dollars to assist what local utilities and local governments 
are able to generate as revenue on their own because what the 
locals can generate on their own is not going to be sufficient.
    Third, there is a need to make sure that when local revenue 
is generated--because additional local revenue is also needed--
--
    Mrs. Lawrence. Exactly.
    Mr. Levine [continuing]. That when that local revenue is 
generated, it is done so in a fair and equitable way that does 
not place undue burdens on low-income households. And there are 
ways to do that. There are ways that Congress can help do that. 
There are ways that States can help do that. There are ways 
that locals can help do that.
    Mrs. Lawrence. And this is an issue. Affordability of water 
is becoming an issue in America that is very concerning. And 
that issue must resonate to a level of high priority.
    Mayor DuPree, thank you for your support of the Water 
Quality Protection and Job Creation Act, a bill that will 
authorize the clean water at $20 billion over 5 years. I am 
proud to be a cosponsor of this legislation and happy to say 
every Democratic member of the subcommittee supports this 
legislation. Can you describe how important it is for Congress 
to take action on this legislation?
    Mr. DuPree. Thank you for the question, Mrs. Lawrence. Just 
in Hattiesburg alone, we have a $150 million project on 
wastewater, probably $46 million or $45 million that has to do 
with sanitary sewer overflows. And then we have water quality. 
We have not lead pipes but we have asbestos, asbestos-lined 
pipes that probably are going to be $50 million. So we are 
talking about $200 million to $300 million of projects. And 
part of my community, 37 percent, is below the poverty line or 
at the poverty line.
    Mrs. Lawrence. Wow.
    Mr. DuPree. There is no way--there is a breaking point 
where you cannot afford to do any more than what you are doing. 
We have spent about $45 million in bonds already to try to 
solve the problem. That is about as far as we can go. That is 
why we are all up here.
    Mrs. Lawrence. Yes.
    Mr. DuPree. Affordability is one of the problems. And 
having help is one of them. Becoming--I almost said co-
conspirators--becoming co-partners in what we are trying to do, 
and that is trying to provide quality of life and health for 
people that we represent.
    Mrs. Lawrence. Yes.
    Mr. DuPree. Economic development for people we represent. 
Without the bill that you have sponsored, I do not think we 
could--and it is just a start.
    Mrs. Lawrence. It is just a start.
    Mr. DuPree. But it is a great start. If we could get that 
bill started, I think it would help not only cities like 
Hattiesburg, but cities across the United States.
    Mrs. Lawrence. Thank you. In my time that is left, I just 
want to make sure that I put on the record that the investment 
in our water infrastructure should be a priority, based on the 
fact it is a basic human need and based on the fact of the 
environment, and we cannot reproduce our water source.
    And the fact that we have lived through a documented 
demonstration--I am sad to hear about the asbestos in the 
water. Ladies and gentlemen, we have to drink water. And if you 
are poor and the only source of water is from what you turn on 
in your faucet, you are subjected. You are subjected to that.
    And as we talk about infrastructure and the dollar and 
legislation, water should elevate to be a priority in our 
investment. Thank you, and I yield back.
    Mr. Mast. Thank you.
    The Chair will now recognize my friend, Mr. LaMalfa.
    Mr. LaMalfa. Thank you, Mr. Chairman. And I apologize for 
not being here for much of this because it is multi committees, 
same time around this place. So thank you for your indulgence 
if I am asking questions that might be a little duplicative, 
but hopefully not. Anyway, thank you to the panel for appearing 
here, and for the committee.
    I have a district that is very rural in far northern 
California, a lot of very small towns. And some of them are 
incorporated and some of them are not even incorporated. So my 
constituents, whether they are city council, city managers, or 
farmers, have not had a very good experience with the EPA, 
especially in very recent times.
    So the issue is, what the EPA says it is going to be doing 
is often hard to hear behind the truckload of paperwork and 
redtape you have to sort through first, trying to finally get 
to an end goal that probably most people would mutually agree 
would be a pretty good end goal.
    Clean water systems, it is a high priority. Sewer systems 
that do not fail, that do not overflow, whether it is a rain 
situation or flood, we all want these things. And so a lot of 
times these municipalities have been in a depressed economy, a 
depressed region, and so for them to work through this, they do 
not just instantly have, for a small town, $5 million for a 
water treatment plan or what have you.
    That just does not come out of a small town that has a lot 
of its storefronts boarded up due to the economy. Maybe some of 
my wooded areas in northern California, the timber industry has 
been run out of business by other environmental concerns. So 
they do not have the economy any more.
    So it is hard to understand whether the EPA really, really 
understands themselves how a small town like Dunsmuir, 
California, or Hamilton City, California, can struggle to 
follow every single requirement that are put on them simply 
because they do not have the money or the staff or the time to 
get every single detail right. Then boom, a bunch of fines or a 
threat of fines.
    So a question for several of you on the panel here. I will 
try Mr. Buttigieg, Mr. DuPree, and Mr. Portune. Please all take 
a whack at this. What do you feel the factors the EPA does 
consider when they are working with small communities? And then 
the second half: What additional factors should they be 
considering when they work with smaller, mid-sized communities 
like this to make sure that they are not completely overwhelmed 
by the requirements?
    So please, the three of you. And we have got to be somewhat 
economical on time. Thank you.
    Mr. Buttigieg. So I think the only--the primary factor is 
compliance. And of course, we all want compliance, but we want 
it to happen with regard to affordability. Sequence also 
matters, being able to do what is most important first. And 
this is where the flexibility and the variances are important.
    One story that is often heard in the Mayors Water Council 
is that of Lima, Ohio. There is a river that is required under 
their consent decree to be fishable and swimmable. It is 4 
inches deep at its highest; it actually runs dry part of the 
year. Nobody is ever going to fish or swim there. They still 
want it to be clean, but the question is, is that the right 
priority? Or if the EPA were encouraged or permitted to take 
sequence and affordability into account, would that have been a 
lower priority than more urgent needs?
    Mr. LaMalfa. So maybe two or three things you could do. 
This one will clear it up 80 percent; this one will be 10 more 
percent, and this thing will be 5 more percent. Maybe we should 
try to do the 80-percent thing on cleanup on water quality if 
it is the most affordable.
    Mr. Buttigieg. Yes. Often we talk about the knee of the 
curve. So in South Bend's experience, I will not try to 
recreate the visual aid. But basically, we got 75 percent of 
the benefit with the first 20 or so percent of the cost. And 
now we are at the knee of the curve and it is going to shoot 
up. And each incremental bit of benefits is going to be much 
more expensive than the first phase.
    Mr. LaMalfa. Mr. DuPree?
    Mr. DuPree. Yes, sir. I would think that EPA would need to 
take some of the things into consideration, like poverty, 
employment or unemployment rates, residential factors. They 
need to look at the income of the low-income community that you 
have.
    Mr. LaMalfa. So the affordability of what is even going on 
in the town there?
    Mr. DuPree. Yes, sir. And the median income. The median 
income is set basically at 2 percent. And maybe we need to look 
at the lower rates. Those who are low income, set the rates 
based on them and not a cookie cutter, not a 2 percent across 
the United States, because all of our citizens are not the 
same.
    Mr. LaMalfa. Yes. Thank you.
    Mr. Portune?
    Mr. Portune. Congressman, thank you for the question. Your 
question actually demonstrates why there is a need for Congress 
to take action and to codify the integrated planning because 
since EPA announced it in 2012, they have not implemented it or 
taken advantage of it as much as they can.
    States are far more aware of the need for flexibility than 
EPA has been, and integrated planning will allow for this 
bundling of interests to come together to prioritize need based 
upon the availability of funds to get the biggest bang for your 
buck. Your example of the three separate elements was a perfect 
one, a great one, why integrated planning is necessary.
    And I would also add quickly that with respect to rural 
communities, America's 3,069 counties are not all urban. They 
are a wide range.
    Mr. LaMalfa. Thank goodness.
    Mr. Portune. Yes, sir. And it is the smaller counties or 
the more rural counties that may not have the resources to be 
able to figure everything out. That is why we need EPA as a 
partner and not as a regulator, so that with this flexibility, 
bringing in State agencies, bringing in others, you can look at 
not only what the demands and the needs are, but everyone is 
working together then in a footing as a partnership to figure 
out what the best approach needs to be. And that is just simply 
not happening right now.
    Mr. LaMalfa. Yes. On my ranch, I like to choose my 
partners, but I know what you are saying.
    Mr. Portune. Yes, sir.
    Mr. LaMalfa. So getting ready to yield back, Mr. Chairman. 
So the bottom line, what I heard and is one of my other points, 
is that integrated planning needs to be pushed forward farther 
and faster instead of on the back burner like it has been so 
far. Yes or no?
    Mr. Portune. Yes.
    Mr. LaMalfa. OK. Thank you. I appreciate it, Mr. Chairman.
    Mr. Mast. Thank you, Mr. LaMalfa. I am going to give myself 
about 5 minutes now.
    I appreciate all the comments. One of them that actually 
stuck out to me very well--I think it was from you, Mr. 
Butler--you made a very important point I think we should all 
remember up here in Washington constantly.
    Are the cities, are the States, those entities, are they 
meant to be regulated entities, or should we be looking at you 
all as peers that have just as much been elected as we have 
been elected up here, and are supposed to be partners in this 
project that is our community and making it better? I think it 
is something we should continually remember in that.
    I want to get to a little bit more the issue of 
affordability. And recognizing that we are all elected, we are 
not spending our own money. We are spending the work of 
somebody else's hands every single day at whatever level that 
we are at.
    So I want to ask, to each of our mayors, if you were given 
the reins of the EPA, if you were given the reins to it, what 
steps would you take to address the affordability in the 
context of the integrated planning and permitting policy? And 
you can start at whichever end of the mayors you want. I do not 
care.
    Mr. Buttigieg. Well, the power of the purse, of course, is 
over here and not in the agency. So needless to say, we would 
benefit from more resources coming our way.
    But in terms of what the EPA can do regardless, again the 
biggest thing we need is partnership, the ability to take, for 
example, a more sophisticated measure of affordability into 
account than just that 2 percent across the board of median 
household income because it does not really capture what is 
happening to the folks who are on the short end of that half, 
that are in the median.
    The ability to cross-pollinate green infrastructure 
solutions from among different communities--mayors have to 
solve these problems locally every chance we get. And so we are 
cooking up good ideas. Now we need the flexibility to use them, 
and the EPA could actually be a very helpful forum sponsoring 
our ability to take them to scale, to share them, and to deploy 
them more widely.
    I think there is a lot that we can do as a partner if we 
can just get that handshake between us and Federal partners who 
share the same goals, get that handshake to be more effective 
and more efficient.
    Mr. Mast. Great. Mr. DuPree or Mr. Portune?
    Mr. DuPree. We had this discussion on the way over here. We 
are probably going to say much of the same thing. But number 
one is partnership. You got to start off working together. We 
all have the same goals. We got to figure out how we are going 
to get there, and we have to do that together and not 
separately.
    And then the other thing is flexibility because after you 
have the partnership, then you have the authority to move. You 
have the authority to act. And I think that is what we do not 
have, is the authority to act. We have to act based on what we 
are told instead of a partnership based on a shared commitment 
to do something, to go forward on.
    And then the affordability issue--if you get those first 
two, then you work on the affordability issue and how do we 
make it happen? Because if I cannot pay for it, I cannot make 
it happen.
    Mr. Mast. You all represent unique and diverse communities 
that all have very specific issues.
    Yes, sir?
    Mr. Portune. Mr. Chairman, thank you. First, act, and by 
that I mean codify. Adopt integrated planning as a measure to 
ensure that this approach with flexibility and partnership is 
the way in which we are approaching these issues with respect 
to Clean Water Act compliance across all programs to give local 
communities the flexibility that they do need.
    Reduce reliance on the median household income. I think we 
all agree that this cookie cutter approach does not work. Each 
of our counties or cities or municipalities are unique. There 
has got to be more of a deeper dive with respect to what are 
the factors that are affecting local communities.
    One-fourth of counties have not yet recovered from the 
recession. So that is an important issue that must be greatly 
understood.
    Third, focus on water quality as the goal as opposed to 
just a numbers game with respect to reducing the number of CSOs 
and SSOs and that sort of thing. At the end of the day, there 
might be, in our community or others, 10 CSOs that still need 
to be eliminated to the cost of potentially $100 million. But 
the impact on clean water is negligible, when there may be a 
much better 21st-century science approach toward getting that 
last measure of clean water that needs to be done.
    Utilize pilot projects to help build the data on how green 
infrastructure, adaptive management, watershed management does 
work and work effectively in reducing costs but providing 
greater impact on clean water.
    And then last, with respect to the civil penalties 
approach, and this is not backsliding at all, if there are 
local communities that are recalcitrant or refusing to comply, 
that is one thing. But the main reason why there is not full 
Clean Water Act compliance is just the lack of money. And civil 
penalties do not help that situation at all.
    Take the money from fines and penalties and actually put it 
back into what we are all trying to do, which are programs and 
initiatives that will improve clean water.
    Mr. Mast. Great. And I just have a couple more quick 
cleanup questions for you, one that I want you to think about 
real quick, and I am going to ask you something specific before 
that. But it is a chance for you to send a message. I like to 
give flexibility, so you can give this in terms of a letter 
grade, A to F, or 1 through 10. I do not care how you answer 
it.
    But think about for a second, what grade would you give the 
EPA in implementing the integrated planning policy? And while 
you think about that as our mayors a minute, I wanted to ask 
you this.
    You have all spoken a good deal about the green 
infrastructure approaches that exist out there. It is one thing 
to learn about them in academia and to talk about them. I was 
wondering if you could give any of the specifics about the ones 
that you have in place being used as we speak, the measurable 
savings that you have seen as a result of using porous roadways 
or floating wetlands or oyster beds or rain gardens or water 
farming, whatever that may be. What specific ones do any of you 
have in place as we speak that you are seeing the payout on.
    Mr. Buttigieg. So for us, permeable concrete is a good 
example. You might not even notice unless you look closely, but 
you look closely at the parking spaces that we are putting in, 
some new streetscapes, and you can see how it drinks up the 
water instead of sending it into the sewer.
    We are doing downspout disconnect----
    Mr. Mast. Is that just on city properties or----
    Mr. Buttigieg. Yes. We are doing it on our roads, and in 
some neighborhoods we have the opportunity to do that, too. But 
of course, we are encouraging the private sector to do that 
because parking lots are such a big part of where the runoff 
comes from.
    A downspout disconnect program: A lot of people have 
downspouts that go straight into the system. And so we are 
making it easier for residents to have those go into the yard 
where the soil will drink up some of it.
    Rain gardens: Making sure that we have ways of collecting 
the water. We are even contemplating----
    Mr. Mast. Do you have a number, though, on how many gallons 
you are taking offline compared to what goes into the system? I 
am just trying to get a few specifics.
    Mr. Buttigieg. Not handy, but we would be happy to get that 
back to you.
    Mr. Mast. Great. Do any of you other mayors have any of the 
specifics that you would want to offer up real quick?
    Mr. DuPree. I do not have any specifics on any of those. We 
are working so hard just trying to take care of the things that 
we already have consent decrees on right now, to be innovative 
is very difficult.
    Mr. Mast. OK.
    Mr. Portune. Mr. Chairman, thank you for calling me a 
mayor. I am actually a county commissioner.
    Mr. Mast. I apologize.
    Mr. Portune. But just for the record, I appreciate it, and 
our mayors would actually take that as a compliment, as do I.
    Mr. Mast. You see, you are fully honorable.
    Mr. Portune. I am grateful for that.
    A couple of examples in Cincinnati that I would refer you 
to. One is the Lower Mill Creek partial remedy, Lick Run 
improvement. I cannot tell you the difference in the gallons of 
water because actually, we are accomplishing about the same 
thing. The importance, though, is the reduction in cost.
    We were obligated, unless we came up with a green approach 
that was approved by EPA, to build a huge, deep tunnel to the 
cost of about $500 million. We instead got approval to use a 
green approach that included daylighting streams, introducing 
new foliage and green grass where there was none before to 
absorb the water, permeable pavers, and things like that.
    The total cost again was less than half of the cost of the 
other, and in the process, it also has allowed us the 
opportunity to begin the improvement of an urban neighborhood 
and to create jobs from that.
    The second example is the Cincinnati Zoo, that calls itself 
the greenest zoo in all of America. And so I will boldly go 
forward and say that they are. But they are using permeable 
surfaces in all of their parking lots at the zoo. And what that 
has done is allowed the zoo to meet all of its nonpotable water 
needs throughout the entire zoo, saving a tremendous amount of 
money and operational cost.
    Mr. Mast. I have already gone well over my time and I still 
have one more cleanup question for you. So I apologize. But I 
appreciate it. I think it is a conversation we had to have 
more, especially if we are going to have folks move in that 
direction.
    They need to see measurable apples to apples comparisons 
about what they could do with an equal flow of water, meeting 
an equal nutrient load in terms of what is going into the 
system, and a dollars-to-dollars comparison, in my opinion.
    Just one last cleanup question, give you an opportunity to 
wrap up with whatever you might have. But if we are really 
going to achieve a paradigm shift where local and State and 
Federal officials can exercise a practical leadership and work 
together to determine what our environmental and spending 
priorities should be, what would you do? Anything else you want 
to offer on that?
    Mr. DuPree. The only thing I would offer, Congressman, is 
that water quality is so important. And when you look at the 
affordability issues and what they talk about, they do not 
include water quality. It is only CSOs and SSOs. And that is 
because the cost of water is so high. And so there has got to 
be a greater focus on water quality and not just on SSOs and 
CSOs.
    And I will tell the only other question that you asked 
about, green infrastructure, we have a barrel retention basin 
at our new police department I forgot about. So we do have that 
plus the Little Gordon's Creek we are working on right now for 
green infrastructure.
    Mr. Portune. Mr. Chairman, I would agree with respect to 
Mayor DuPree that the goal of this is clean water. And so the 
focus needs to be on what can we do using innovative means and 
approaches, collaborative approaches, that are going to allow 
us to clean up the waterways of America in ways that are 
efficient, effective, and affordable?
    So if the goal is clean water, that has got to be what the 
focus is. This cannot just simply be a numbers game in the 
number of CSOs that are being reduced.
    And I do have a grade for EPA's implementation, if you 
wanted that.
    Mr. Mast. I would love to hear it.
    Mr. Portune. I would give EPA a C-minus with respect to 
their approach. They have taken steps in bits and spurts. 
Lately there has not been as much. Clearly I credit EPA for 
introducing integrated planning back in 2002, but it has just 
simply not been implemented across the board the way in which 
it could be, and there is a distinct difference between the way 
in which the regions approach it compared to headquarters here 
in Washington, DC.
    So credit for having started. A passing grade, but not 
where they should be.
    Mr. Mast. Any other grades you want to offer before I close 
this?
    Mr. Buttigieg. Maybe Incomplete. Again, that idea of 
integrated planning is welcome, but it hasn't been completely 
implemented, and it seems not always to have penetrated into 
the regional offices even if it's embraced here in DC.
    Mr. DuPree. I will give it a B just for the attempt.
    Mr. Levine. If I may, Mr. Chair?
    Mr. Mast. Very good. Well, yes, by all means. You want to 
offer up a letter? Give me a letter.
    Mr. Levine. Yes.
    Mr. Mast. And aside from that letter, I am going to close 
it.
    Mr. Levine. I am going to revert back to before letter 
grades in first grade, second grade, grade school. I am going 
to say Needs Improvement. But I want to say that that's really 
what we ought to be grading, is collectively grading EPA, 
Congress, local governments, local utilities. As people have 
said, there's partnership that is needed. There are many legs 
of the stool. EPA cannot do it alone.
    Mr. Mast. Needs Improvement. We will put it in the record.
    If there are no further questions, I would like to thank 
each of you as our witnesses for being here this morning. We 
really appreciate your time. This has been incredibly 
informative for me, I know for everybody else as well on the 
dais.
    If no other Members have anything else to add, the 
committee stands adjourned.
    [Whereupon, at 12:13 p.m., the subcommittee was adjourned.]
    

 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
   
    
    
   
   
                                    
</pre></body></html>
